Office of Inspector General




     Semiannual
  Report to Congress
    April 1 — September 30, 2013
Mission Statement




             T   he mission of the U.S. Postal Service Office of Inspector General
                 is to conduct and supervise objective and independent audits,
             reviews, and investigations relating to Postal Service programs and
             operations to:
              Preventand detect fraud, theft, and misconduct;
              Promote economy, efficiency, and effectiveness;
              Promote program integrity; and

             Keep the Governors, Congress, and Postal Service management
             informed of problems, deficiencies, and corresponding corrective
             actions.
A MESSAGE FROM THE INSPECTOR GENERAL



          T    he U.S. Postal Service has had an impressive track record of success in the face of competing technologies,
               such as the telegraph, telephone, and computers. Successive predictions of the Postal Service’s demise
           were greatly exaggerated, to borrow a phrase. But the digital revolution, with its smart devices, and social
           networking, has proven to be an especially challenging period. Creative destruction is weakening many of the
           nation’s business sectors and public infrastructures.

           While the digital age has ushered in major changes in communications, the Postal Service’s mission to bind the
           nation together has remained largely unchanged. It is past time to provide the Postal Service the tools it must
           have to adapt its business model for a new era of communications while retaining the valuable infrastructure that
           serves American citizens and commerce.

           Likewise, the Office of Inspector General’s commitment to integrity, accountability, and transparency remains
           steady even as the tools we use to achieve our goals continually evolve. Collaboration, data analytics, and
           modeling have enhanced our work, helping us to focus on high-risk, high-value work. We can now proactively
           pursue risks and work the best cases in a shorter period of time. We are collaborating with the Postal Service to
           model data across program areas for more timely, relevant, and actionable products.

           The Semiannual Report to Congress, for the reporting period of April 1 through September 30, 2013, features
           overviews of our key audit and investigative work in the period, as well as special reports and white papers.

           The appendices provide detailed information on audit reports and their recommendations, investigative cases
           pursued in the period, and monetary impacts of our work. In this reporting period, we issued 114 reports,
           including audit reports and management advisories, which resulted in about $13.5 billion in monetary impact.
           We completed 2,143 investigations that led to 332 arrests and nearly $80 million in fines, restitutions, and
           recoveries, of which $74 million went to the Postal Service.

           I look forward to working with the Governors, Congress, and Postal Service management as we address the
           challenges ahead. With the support of these groups, the OIG will continue to play a key role in maintaining the
           integrity and accountability of America’s postal service, its revenue and assets, and its employees through our
           audit and investigative work.




              David C. Williams
              Inspector General




Semiannual Report to Congress                                                                                 April 1 — September 30, 2013
Summary of Performance
For the period of April 1 — September 30, 2013




 AUDITS
 Reports issued                                                                                                                                      114
 Significant recommendations issued                                                                                                                  106
 Total reports with financial impact                                                                                                                  34
      Funds put to better use                                                                                                             $11,034,458,086
      Questioned costs                                                                                                                     $1,104,835,559
      Revenue Impact                                                                                                                       $1,342,582,211
 TOTAL                                                                                                                                  $13,481,875,856


 INVESTIGATIONS 1
 Investigations Completed                                                                                                                           2,143
 Arrests                                                                                                                                             332
 Indictments/Informations                                                                                                                            237
 Convictions/pretrial diversions             2
                                                                                                                                                     318
 Administrative actions                                                                                                                             1,175
 Cost Avoidance                                                                                                                              $147,036,411
 Fines, Restitution, and Recoveries                                                                                                           $79,671,450
       Amount to the Postal Service 3                                                                                                         $74,015,994


 OIG HOTLINE CONTACTS
 Telephone calls                                                                                                                                  32,244
 E-Mail                                                                                                                                           19,888
 Standard Mail                                                                                                                                       843
 Voice Mail Messages                                                                                                                                 467
 Facsimile - FAX                                                                                                                                     284
 National Law Enforcement Communications Center                                                                                                      333
 TOTAL CONTACTS                                                                                                                                   54,059

 1
     Statistics include joint investigations with other law enforcement agencies.
 2
     Convictions reported in this period may be related to arrests in prior reporting periods.
 3
     Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




Semiannual Report to Congress                                                                                                   April 1 — September 30, 2013
Table of Contents

SIGNIFICANT AUDIT WORK	
FINANCIAL AND SYSTEMS ACCOUNTABILITY
  Availability of Critical Applications.......................................................................................................................... 2
REVENUE AND PERFORMANCE
  Virtual Post Office Boxes....................................................................................................................................... 2
  U.S. Postal Service Data Governance .................................................................................................................. 3
  Small Business Growth.......................................................................................................................................... 3
  Intelligent Mail Barcode Development and Use of Data........................................................................................ 3
MISSION OPERATIONS
  U.S. Postal Service Parcel Delivery Lockers......................................................................................................... 4
  Emergency Preparedness for Hurricane Sandy and Vehicle Operations – Response to Hurricane Sandy.......... 4
SUPPORT OPERATIONS
  Overtime Use During Fiscal Years 2011 and 2012 ............................................................................................... 4
  Postal Service Injury Compensation Program....................................................................................................... 5
  Contracting of Real Estate Management Services................................................................................................ 5
SPECIAL FEATURES	
  The Untold Story of the ZIP Code.......................................................................................................................... 6
  What America Wants from the Postal Service....................................................................................................... 6
  The Global Logistics Revolution: A Pivotal Moment for the Postal Service........................................................... 7
  Public-Private Partnerships: Best Practices and Opportunities for the Postal Service.......................................... 7
OFFICE OF INVESTIGATIONS	
FINANCIAL FRAUD.................................................................................................................................................. 8
HEALTHCARE FRAUD............................................................................................................................................. 8
MAIL THEFT.............................................................................................................................................................. 9
CONTRACT FRAUD................................................................................................................................................. 9
APPENDICES	
APPENDIX A
  Reports Issued to Postal Service Management................................................................................................... 10
  Reports with Quantifiable Potential Monetary Benefits.........................................................................................11
  Report Listing....................................................................................................................................................... 12
  PARIS Risk Models.............................................................................................................................................. 14
APPENDIX B
  Findings of Questioned Costs.............................................................................................................................. 15
APPENDIX C
  Recommendations That Funds Be Put to Better Use.......................................................................................... 16
APPENDIX D
  Other Impacts...................................................................................................................................................... 17
APPENDIX E
  Reports with Significant Recommendations Pending Corrective Actions............................................................ 18
APPENDIX F
  Significant Management Decisions in Audit Resolution ...................................................................................... 32
APPENDIX G
  Status of Peer Review Recommendations.......................................................................................................... 32
APPENDIX H
  Investigative Statistics*........................................................................................................................................ 33
APPENDIX I
  Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007....................................... 34
  Financial Reporting on Investigative Activities for the Postal Inspection Service ............................................... 34
APPENDIX J
  All Closed Congressional/ PMG/BOG Inquires.................................................................................................... 35
SUPPLEMENTAL INFORMATION
  Freedom of Information Act.................................................................................................................................. 42
  Workplace Environment....................................................................................................................................... 42
  Acronym Guide.................................................................................................................................................... 43




Semiannual Report to Congress                                                                                                                                                April 1 — September 30, 2013
                                                        Financial and Systems Accountability




SIGNIFICANT AUDIT WORK


 Management Response to Audit Work                           FINANCIAL AND SYSTEMS ACCOUNTABILITY
 Office of Audit (OA) adheres to professional audit          Availability of Critical Applications
 standards and generally presents its audit work to           The Postal Service relies on several systems to support customer service, automate
 management for comments prior to issuing a final             and improve mail acceptance and postage payment, and improve the user’s overall
 report. Unless otherwise noted in the selected audit         experience. These systems, known as critical applications, can also reduce manual
 work discussed in this report, management has                inputs, increase efficiency, and streamline postal operations. Often seamless to
 agreed or partially agreed with our recommendations          customers, these sophisticated systems cut across all aspects of postal operations. For
 and is taking or has already taken corrective action         example, business mailers rely on the Facility Access and Shipment Tracking (FAST)
 to address the issues raised.                                system to set up appointments for entering their mail. PostalOne! is an electronic suite
                                                              of services for business mailers that allows for a seamless mail acceptance process.
Point-of-Service (POS) terminals are the “cash registers” at retail outlets that automate and expedite retail transactions. A wide range of customers,
including home-based and small businesses, use the USPS.com applications, which provide access to online services and products.

Our report looked at how frequently these systems were down and unavailable to users and customers. The Postal Service has set a target of 99.7
percent for most applications to be available and 99.9 percent for online applications. We found the overall availability of these systems have ranged
from 98.9 to 99.9 percent during FY2011 through the first 6 months of FY 2013. We determined the Postal Service’s operations, processes, and
procedures were effective in ensuring the availability of the FAST, PostalOne! – Business Customer Support System, and USPS.com applications.

The Postal Service has not been as effective in its POS terminal operations and in conducting monitoring activities to ensure that it meets availability
targets. The Postal Service sites do not always report terminals disconnected from the network to the designated help desk. Further, employees
are not properly following policy and management is not providing sufficient guidance on reporting POS terminal outages. We also determined
the Postal Service does not monitor the availability of POS terminals during business hours or track how long terminals are unavailable. This is
because no group has been assigned to conduct real-time monitoring or develop and maintain reports and metrics on the availability of POS
terminals over time. We recommended the Postal Service develop and provide guidance and oversight that require POS users to immediately
report all outages and issues to the designated help desk. We also recommended the Postal Service assign a group to conduct real-time
monitoring and develop a process for timely reporting of outages and maintaining reports and metrics on the availability of POS terminals.

Management disagreed with recommendations to develop guidance for all POS-Retail associates on responding to an outage or a POS terminal in
degraded mode. They also disagreed with the recommendation to document and provide oversight to ensure users of POS-Retail terminals at all Postal
Service sites immediately report terminal outages and issues to the designated help desk. Management said data provided to the OIG indicates that
employees call the help desk when there is an issue, substantiating their awareness of procedures. Management also disagreed with recommendations to
assign responsibility for conducting real-time monitoring of POS-Retail terminals and to develop metrics and a process for timely reporting outages and
degraded issues because end users are an effective way to monitor POS and enable the help desk to effectively troubleshoot and resolve issues; real-time
monitoring represents a major effort; and a help desk case rate is reviewed on a quarterly basis and analyzed to continuously improve system availability.


REVENUE AND PERFORMANCE
Virtual Post Office Boxes
In today’s mobile society, people socialize, shop, work, and play anywhere and everywhere. Yet even as many aspects of communications and
commerce have gone mobile, the physical address has remained static. Our research paper explored the concept of a Virtual Post Office (PO) Box,
which would offer portability to the address and create opportunities for customers and businesses to manage the physical delivery of mail and
parcels the same way they manage digital communications. Much like the traditional PO Box service, the Virtual PO Box would provide users with
an alternate address instead of their residential or business address. Virtual PO Box customers could log into their USPS.com accounts to link this
address with any physical address, including a home or business address, a nearby Post Office, a physical PO Box, or even a gopost® parcel locker.

Virtual PO Boxes with an online management feature would also give users additional control over their mail, turning mailboxes into powerful
tools for managing goods and information. They would provide users with an address that could be redirected anywhere they choose, solve the
issue of some post offices having an insufficient number of physical PO Boxes to rent to customers, or act as a permanent address that would
remain constant, which could help reduce change-of-address complications when a customer moves. Besides adding functionality to email
accounts and smart devices, the virtual PO Box would be a portal for broad new uses for the Postal Service’s current network and products.




Semiannual Report to Congress                                                    2                                                 April 1 — September 30, 2013
                                                                Revenue and Performance
We explored the Virtual PO Box concept more deeply at a roundtable with Postal Service officials and stakeholders, including representatives from
the Postal Regulatory Commission, labor unions, management associations, and digital experts from business and academia. Participants noted the
implementation challenges of the Virtual PO Box, especially in the areas of operations, privacy, and how the Postal Service’s traditional role as a physical
deliverer of mail might change. However, participants said the Postal Service is uniquely positioned to meet its customers’ growing needs and to participate
in the rapidly changing digital arena. But timing is critical, they said, and such an ambitious project would require a long adoption cycle. They suggested
the Postal Service could reach out to potential partners and collaborate with other companies and organizations that have had success in the digital era.

U.S. Postal Service Data Governance
The Postal Service operates one of the largest information technology infrastructures in the world. Data collected from hundreds of computer
applications help it manage operations and shape strategic goals. Our report found numerous shortcomings in the management of this critical
data. Notably, the Postal Service defined a structure for a data governance program in 2003, but full roles and responsibilities were not uniformly
adopted across the enterprise. We also identified limitations in the Postal Service’s data governance program that placed the organization at
risk for potential vulnerabilities in data quality, availability, and integrity, which could cause inefficient operations, disruptions in service, and
fraud. These limitations included an inconsistent corporate-wide data strategy, unreliable and inaccurate data, data inconsistencies within the
Enterprise Data Warehouse, insufficient IT security measures, and difficulties with accessing and sharing data. We identified best practices
used by companies with successful data governance programs and we applied these best practices to identify a possible implementation
strategy. Management agreed with our recommendation and has begun establishing a formal, enterprise-wide data governance program.

Small Business Growth
The small business mailing and shipping market is a key Postal Service customer segment – it generates more than $9 billion in annual revenue
– and a vital part of the national economy. Market research indicates the small business market is a multi-billion dollar opportunity for the Postal
Service, and the organization has renewed its focus on this market. The Postal Service relies on its sales staff and postmasters to reach out
to current and prospective small-business customers. Our report determined the Postal Service has opportunities to improve the efforts of its
postmasters and sales staff in retaining and growing small business revenue. To start, it should place an organizational priority on generating
small business revenue. It should further leverage the relationship postmasters have with local small businesses by establishing a process for
postmasters to join local civic organizations. The Postal Service could enhance collaboration between postmasters and sales staff, developing
clear communication paths to support postmasters, and it should improve the availability and usage of quality sales-related tools and training.

Our report found that these collective improvements could result in additional small business revenue of $122 million in fiscal year 2013,
although management disagreed with this revenue outcome. Management also disagreed with our recommendations to increase the
priority that postmasters and sales staff place on generating small business revenue and to leverage the postmasters’ community status.
They disagreed with our suggestion to develop new communication paths for postmasters to get needed support from either business
development specialists or sales staff. Management stated they have a successful set of well-defined processes in this area.

Intelligent Mail Barcode Development and Use of Data
The Postal Service developed its Intelligent Mail Program 10 years ago to provide better information about mail as it moves through the
system and to improve efficiency by using information-rich, standardized barcodes to track mail as it is processed. The main component
of the program is the Intelligent Mail barcode (IMb), one of a suite of four barcodes used to generate data. The IMb uniquely identifies
letter and flat-sized mailpieces. Other barcodes in the suite include IMb for trays; IMcb for containers; and IMpb for parcels.

The Postal Service is anticipating increased usage of the IMb as mailers prepare for the coming requirement that all automation mail include
full-service IMb. As IMb usage increases, so does the data it generates. Our audit determined the Postal Service lacks a comprehensive plan
for continued development and use of IMb data. First, the Postal Service developed the IMb database structure and made decisions about
storage capacity, processing speed, and timely availability of data without considering the needs of all IMb data users. Also, current plans for
using IMb data have grown beyond the original vision, meaning data storage capabilities and system upgrades were needed to support the
requirements stakeholders identified after initial development. The Postal Service envisions developing an information technology infrastructure
to scan and track letter and flat-sized mailpieces as they travel through its processing network. However, without a comprehensive plan, the
program applications in development may have limited functionality and may not meet all users’ needs, such as real-time mail tracking.

We recommended management develop a comprehensive IMb data plan utilizing data governance principles for the collection, storage,
and use of IMb data. The plan should include input from all business users, an assessment of all costs, and milestones for the life of the IMb
program. Management disagreed with our conclusion that the Postal Service has not had, and does not have, a comprehensive IMb plan.
Management said the plan resides with the chief information officer, and it put forward project investments as evidence of the plan.




Semiannual Report to Congress                                                    3                                                   April 1 — September 30, 2013
                                                                       Mission Operations
MISSION OPERATIONS
U.S. Postal Service Parcel Delivery Lockers
Parcel lockers, the free 24-hour receptacles for receiving package delivery, have significant potential, but the Postal Service should revise the complex
registration process of its pilot test of parcel lockers and adjust other impediments to their usage. With some adjustments and by broadening the options
available in the pilot test, the Postal Service could evaluate additional revenue generating opportunities of parcel lockers, as well as their full potential for
cost avoidance.

The growth in parcel volume and the changing needs of customers prompted the Postal Service to develop its gopost® parcel lockers, which provide an
alternative to home delivery of packages. Under the current pilot test, registered customers use their gopost card and personal identification number to ship
and receive parcels and receive email or text notifications about their parcel shipments. The Postal Service is testing gopost primarily in the greater
Washington, DC, area in shopping centers, commercially situated post offices, and transportation hubs. It has also deployed lockers in New York City.

Our review, which focused on gopost in the Capital Metro Area, determined the Postal Service is missing opportunities for greater customer adoption of
gopost because the registration process for using gopost is complex. About two-thirds of registered users gave up on their registration before finalization. We
recommended the Postal Service simplify the process, perhaps taking lessons learned from other posts that have implemented parcel lockers. We recognized
that this issue has not been explored because management wanted to limit initial functionality of the pilot test to evaluate operational strategy, but we suggest
broadening the options tested during the pilot test to better evaluate the full revenue generating capability of gopost.

Emergency Preparedness for Hurricane Sandy and Vehicle Operations – Response to Hurricane Sandy
Hurricane Sandy, the deadliest and most destructive storm of the 2012 hurricane season, battered the eastern United States in October last year, causing
billions of dollars in damage. The Postal Service suffered damage to 181 Postal Service facilities and 110 delivery vehicles, our two audits determined. The
Postal Service followed its hurricane guidelines and enacted its integrated emergency management plan, which mitigated the effects of Hurricane Sandy on
postal property and equipment. However, the plan could not completely safeguard postal property due to the deviation of the storm and its unprecedented
impact. The storm hit hard the low-lying locations in New York and New Jersey that are not normally prone to flooding.

The Postal Service’s emergency preparedness plans for its delivery vehicles included directing personnel to move vehicles to higher ground. Our report
determined this move helped to mitigate damage to vehicles, but 110 of the 16,267 vehicles were still damaged or destroyed. Management ensured that
damaged delivery vehicles were repaired and serviced before being reused.

In most of the 27 locations we visited, the Postal Service implemented emergency management plans to safeguard employees and assets. The organization
properly assessed damages and quickly re-established operations. However, managers at four locations did not adequately safeguard employees, and
managers at 13 locations did not adequately safeguard mail or other assets because they were not sufficiently trained. Also, we found that seven of the nine
districts and installations did not always properly complete and approve the integrated emergency management plan because of inadequate oversight and
confusion over which facilities required the plan. This resulted in employees, mail, and $1.1 million of cash and other assets being exposed to increased risk.

We recommended the Postal Service clarify and communicate to personnel which facilities must have integrated emergency preparedness plans. We
recommended management provide periodic training and implement policies and procedures for when personnel should report to facilities under mandatory
evacuation orders. The Postal Service should issue guidance for holding and moving mail and other assets from facilities in flood zones and policies and
procedures for completing and approving integrated emergency management plans. We also recommended updating emergency preparedness plans with
new low-lying flood areas to safeguard vehicles. The Postal Service disagreed that its employees were at risk relating to mandatory evacuations, stating that
it adhered to postal policy and followed locally ordered evacuations.


SUPPORT OPERATIONS
Overtime Use During Fiscal Years 2011 and 2012
Many of the Postal Service’s initiatives to address its financial challenges have resulted in workforce changes, which have contributed to an increase in
overtime usage. At the request of the Postmaster General, we looked at why overtime workhours have been increasing and how the Postal Service manages
workhours. The Postal Service uses overtime workhours to provide flexibility and meet its operational requirements without increasing overall staffing levels.
Our audit report found opportunities for tighter controls on overtime usage.

Our report focused on three districts with the highest overtime rates during the past 5 years, and one district where employees received the highest overtime
dollars. In this latter district, the Postal Service paid seven mail handlers between $65,000 and $76,000 each for overtime workhours in FY 2012, resulting in
their salaries more than doubling. Overall, overtime hours accounted for more than 7 percent of total workhours in both FYs 2011 and 2012 – a rate well above
the Postal Service’s target rate of 5 percent. Our report determined the Postal Service incurred significant overtime workhour use primarily because workforce
was not aligned with workload; inadequate supervisory oversight; and mail arrived late at the delivery units, which resulted in carriers having to wait to begin
work and then needing overtime to deliver. Overtime costs were high in one district because a union agreement negotiated at the local level paid workers extra
money for overtime hours worked after 5:15 PM. We recommended management:

 Establish a plan to address staffing vacancies and better align the workforce to workload;
 Require officials at identified mail processing facilities and delivery units to implement plans to better align mail arrival times and carrier schedules;
 Require supervisors to monitor carrier workload and conduct street supervision; and
 Pursue changes to local agreements in the district we visited.



Semiannual Report to Congress                                                       4                                                   April 1 — September 30, 2013
                                                                     Support Operations
Postal Service Injury Compensation Program
Workers’ compensation is a significant and growing cost for the Postal Service, totaling more than $1.3 billion in FY 2012 plus another $68 million in
administrative fees. Workers comp costs have grown more than 25 percent since the 2009 billing period and administrative fees have increased 23 percent
in that time. As of December 2012, the Postal Service is facing a long-term workers’ compensation liability of $16.5 billion and had 16,999 employees on the
periodic roll, which refers to employees on workers comp with disabilities that are expected to be permanent or prolonged.

Postal employees are covered by the Federal Employees’ Compensation Act (FECA), which provides benefits to civilian federal employees who sustain
an injury or occupational disease as a result of employment. The U.S. Department of Labor administers and enforces this act and the Postal Service
manages efforts to return injured employees to work through its Injury Compensation Program. The Postal Service is the largest FECA participant in the
federal government. The Postal Service’s health and resource management (HRM) staff and other officials play an important role in administering the injury
compensation program and reducing related costs by returning injured employees to work as soon as possible. Our report determined that the Postal Service
needs to improve procedures for administering workers’ compensation claims. Management did not consistently determine the number of HRM district
specialists needed. Also, the Postal Service has reduced the number of staff significantly since 2009 and used some health and resource management
personnel for collateral duties. Management did not fully use nurses in case management. Specific performance measures did not exist and personnel did not
receive adequate training.

We identified internal best practices to return employees to work and based our recommendations on these practices. We recommended an automated work
search system and a quick reference guide for case management. We also identified industry practices for an effective workers’ compensation program,
including using nurse case managers, partnering with non-profit organizations, and using predictive analytics. For example, the Transportation Security
Administration used measures that included early intervention with contracted nurse case managers and reduced its chargeback costs by about 30 percent
from 2006-2010.

We determined the Postal Service could reduce the number of employees receiving workers’ compensation and save more than $85.5 million annually.
We recommended management conduct a formal staffing analysis to include using contract nurses for case management. We recommended
management establish district performance measures based on cost reductions and implement a nationwide work search system, along with district
rehabilitation program committees.

Management disagreed with our recommendations to partner with nonprofit organizations, stating that it would not reduce the compensation payable to the
employee. Management also disagreed with our recommendation to enhance the Employee Health and Safety system by providing automated reminders
since other enhancements to the system take priority.

Contracting of Real Estate Management Services
With a presence in nearly every community, the Postal Service is one of the largest real estate owners in the country. For years, its real estate objectives have
been to acquire, lease, build, and expand facilities to support operations. But as operations have changed, so have the Postal Service’s real estate goals and
objectives. It now is focused on disposing of excess space and vacant properties to optimize operations, generate revenue, and reduce real estate expenses.

In June 2011, the Postal Service awarded a contract to real estate management firm CB Richard Ellis, Inc. (CBRE) to act as the primary provider of real estate
management services, including managing the sale of the Postal Service’s real estate. With this contract, the Postal Service turned over to CBRE many of the
duties formerly performed by its own real estate specialists and other real estate contractors. The Postal Service expected to benefit from the expertise and
reach of a national real estate management firm. The Postal Service paid the contractor $1.8 million for its services in FY 2012.

Although the contract resulted in cost savings for the Postal Service during the first year, our report determined that postal officials did not effectively provide
contract oversight to reduce risks. We also found potential conflicts of interest because CBRE provides a range of property values to negotiate a lease and
then receives a commission from the lessor based on the property value negotiated. Its incentive to negotiate the lowest lease possible for the Postal Service
could be called into question. Further, the Postal Service permits the contractor to act on its behalf in negotiating leases and the contractor can also represent
the lessor after disclosure through a dual agency agreement and consent of the Postal Service. We found other shortcomings, including no maximum contract
value. We also determined the contracting officer did not properly approve contract payments or appoint contracting officer’s representatives to monitor
contract performance or ensure services were provided. Postal Service officials should improve contract oversight to mitigate inherent risks associated with
this contract. We recommended management establish a reasonable maximum contract value based on historical budgets, designate contracting officer’s
representatives, and specify their duties to monitor contract performance and approve payments.




Semiannual Report to Congress                                                     5                                                  April 1 — September 30, 2013
                                                                      Special Features




Special Features
The Untold Story of the ZIP Code
In 1963, the Post Office Department introduced the Zone Improvement Plan (ZIP) Code to make sorting mail easier and to move toward automated mail
sorting. To ensure the success of the code, the Post Office found executive sponsorship, examined foreign posts for successful comparisons, developed a
stakeholder outreach program, and remained committed to implementing the ZIP Code in spite of initial resistance by mailers. Society benefited from the
Post Office’s efforts because the ZIP Code became a valuable tool for organizing and displaying demographic information, as well as a support structure for
entire industries such as insurance and real estate. Because it was offered as a foundational layer on a public open platform, the ZIP Code had potential for
tremendous and wide impact. The OIG, in conjunction with IBM, determined that the ZIP Code adds about $10 billion dollars in economic value to society each
year.

The paper, The Untold Story of the ZIP Code, discussed ways to enhance the ZIP Code in the digital age, such as combining the ZIP Code with the precision of
geocodes (latitude and longitude coordinates). This would help facilitate delivery route configuration and allow ZIP Codes to be linked to geographic information
system software. It would also help align government investments to serve public needs by assisting disaster recovery efforts, tracking population “flight paths”
to unaddressed areas, and increasing the capability to map demographic information to surface areas. Another enhancement would be to link demographic
information with the ZIP Codes to improve target mailings. This would increase the value of the mail for both senders and receivers by connecting recipients
with more targeted mailings, although this option should be pursued on an opt-in basis to protect privacy. A final suggestion is to maintain the ZIP Code as an
open platform and let users come up with additional uses and applications that would increase the ZIP Code’s value into the future.

What America Wants from the Postal Service
The Postal Service is at a critical juncture in determining its role in the digital age. Americans’ communications needs are continually evolving, as are
their expectations of the Postal Service. The OIG commissioned a study by a market research firm to hear from the American public. The project called,
What America Wants from the Postal Service, was aimed at better understanding how Internet-connected Americans view the Postal Service now and what
role it could play in their lives in the future. While survey results were compared across multiple demographic criteria, the age of respondents was most
likely to reveal variations in response.

Among the key findings from the survey:

 The vast majority of respondents think their lives would be affected if the Postal Service did not exist in 5 years.
 The majority of respondents still see value in receiving at least some of their mail in hard copy.
 Most respondents reported they have some discomfort with conducting online transactions, but more than half said they do so anyway.
 Most respondents reported they believe the Postal Service is a public service that should be maintained, even if it is not profitable.
 The overwhelming majority of respondents, however, misunderstand how the Postal Service is funded.

Those surveyed stated their satisfaction with the service and accessibility of their Post Office, but a majority of respondents indicated they would be interested
in more self-service options. Respondents are generally not opposed to closing post offices to reduce cost, but they reported that they are less likely to support
the notion if it resulted in their own Post Office closing. While the majority of respondents did not oppose 5-day delivery, very few participants were supportive
of reducing mail delivery to 3 days per week or reducing Post Office hours. Respondents showed varied interest in the Postal Service providing additional
services; the most interest was in other government services being provided at the Postal Service, such as renewing licenses or permits. Younger respondents
showed the most interest in new services, including digital services.




Semiannual Report to Congress                                                   6                                                  April 1 — September 30, 2013
                                                    Special Features
The Global Logistics Revolution: A Pivotal Moment for the Postal Service
Powerful forces like globalization and new digital technologies are changing how, when, and where goods are produced, purchased, and delivered. Together,
these forces are transforming the global logistics market, altering hundreds of years of traditional commerce, and resulting in major implications for postal
operators. The explosion of e-commerce parcels flooding postal networks is just one sign of the confluence of these forces. This “global logistics revolution”
has also changed how we shop: with a smartphone or a tablet we can shop anytime, anywhere. In addition, offshore production trends are reversing, and
some manufacturing jobs are returning to the United States. Finally, major urban areas continue to grow and link into a global transportation supergrid that
connects people, commerce, and ideas. However, some people may be left off the supergrid, disconnecting them from the new global economy.

Postal organizations around the world could play a key role in keeping citizens and commerce connected as the global logistics revolution evolves. Some
foreign posts already provide an array of logistics services ranging from comprehensive warehousing to customized, end-to-end cross-border and returns
solutions. For some of these posts, these “value-added” logistics services are providing a significant new revenue stream. The Postal Service is well
positioned to move into the large and fast-growing logistics market. With its extensive first- and last-mile reach and its mission to “bind the nation together,”
the Postal Service is unmatched in keeping communities connected. Either on its own or by partnering with private sector companies, the Postal Service
could offer a range of new services and products to meet the evolving needs of citizens and businesses across the country.

The Global Logistics Revolution: A Pivotal Moment for the Postal Service highlighted the forces and trends fueling the global logistics revolution and examined
the implications and opportunities for the Postal Service to meet the changing needs of citizens and commerce through value-added logistics. The paper found
that if the Postal Service does not at least keep up with emerging customer expectations for improved and expanded logistics services, it could jeopardize its
position in the evolving expedited and small package market.

Public-Private Partnerships: Best Practices and Opportunities for the Postal Service
Public-private partnerships (PPPs) are an increasingly popular way for governments to achieve policy goals and develop infrastructure while shifting
short-term financial burdens away from taxpayers and strained government coffers. While the Postal Service does not use a single cohesive PPP strategy,
it has experience with PPPs in several functional areas such as the contract postal unit program, which allows privately owned retail facilities to sell postal
services. The Postal Service also has a number of marketing affiliate relationships with private businesses and operational partnerships designed to
leverage private sector efficiencies.

The Postal Service can learn from the experiences of foreign postal operators and other U.S. federal and state agencies. A key lesson from observing other
public organizations is that there are significant benefits in consolidating PPP expertise within a single office. A PPP office can serve as a repository for
best practices; standardize and disseminate such practices to functions throughout the organization; act as a champion for PPPs; and develop the financial,
legal, technical, and communications skills necessary for the successful development of PPPs. Such an office could also serve as a well-defined and easily
identifiable point of contact for potential partners.

This paper reviewed lessons learned from the Postal Service’s use of PPPs, and identified critical success factors for effective PPPs based on the experiences
of foreign postal operators and U.S. government agencies. The paper also identified potential partnership opportunities for the Postal Service, and suggested
adoption of some best practices to help guide a future strategy.




Semiannual Report to Congress                                                     7                                                   April 1 — September 30, 2013
                                                                       Financial Fraud




OFFICE OF INVESTIGATIONS

The Postal Service is consistently ranked by the Ponemon Institute as America’s “most trusted federal agency.” Among the reasons for this ranking is the
integrity of its employees. However, a few postal employees and contractors betray that trust and abuse the public’s confidence in the Postal Service. When
that happens, the OIG’s Office of Investigations (OI) gets involved.

To protect the mail and to ensure the integrity of postal processes, finances, and personnel, the Postal Service relies on the investigative efforts of
OI special agents, who are stationed in offices nationwide. Their charge is to investigate internal crimes and frauds committed by postal employees
and contractors against the Postal Service and employee misconduct. In this section, we highlight work conducted by the OI during this reporting period
that contributed to safeguarding the Postal Service’s revenue and assets and helped deter postal crimes, ultimately helping to maintain a stable and
sound Postal Service.


FINANCIAL FRAUD
A large portion of the $66 billion in revenue generated by the Postal Service is handled at the 32,000 postal retail locations. Our agents investigate employees
who embezzle funds; misuse money orders; or steal and misuse postal-issued credit cards.

 An OIG investigation revealed an Oregon sales and service associate converted postal funds for personal gain. The associate fraudulently negotiated
  checks from business mailing customers for a lesser amount than the face value of the check, keeping the difference for personal use. During an interview
  with agents, the sales associate also admitted to defrauding the Postal Service by failing to report the sale of stamps and using the proceeds from her
  schemes to support her gambling addiction. In June 2013, the employee pleaded guilty to one count of misappropriation of postal funds and was
  sentenced to 18 months in prison, 3 years of probation, and ordered to pay $135,000 in restitution to the Postal Service. The Postal Service terminated
  the employee in January 2012.

 In June 2013, a Brooklyn contract postal unit employee pleaded guilty to theft of government property and was sentenced to 3 years of probation,
  6 months of home detention, and ordered to pay $62,000 in restitution to the Postal Service. Our investigation revealed that over a 3-year period, the
  employee underreported more than $113,000 in postage meter revenue and could not account for $10,000 in missing stamp stock. During an interview
  with OIG agents, the employee admitted to manipulating Postal Service records to embezzle funds for personal use. Because of the investigation,
  the Postal Service recovered $123,000.


HEALTHCARE FRAUD
Employees who suffer a work-related injury or illness receive monetary and medical benefits known as workers’ compensation. The benefits paid by the
Postal Service to workers’ compensation claimants in FY 2013 totaled $1.4 billion. Its estimated total liability for future workers’ compensation costs now
stands at $16.5 billion.

The U.S. Department of Labor, Office of Workers’ Compensation Programs (OWCP) administers workers’ compensation on behalf of the Postal Service
and passes through direct compensation to providers, claimants, and beneficiaries. Special agents detect and investigate fraudulent claims. Investigations
that substantiate fraud result in significant long-term savings to the Postal Service. Investigative efforts in this reporting period resulted in more than
$127.8 million in cost savings or avoidances, 27 arrests, and 109 administrative personnel actions, including removals and suspensions and termination
of benefits.

 Our joint investigation with the California Department of Insurance and the Department of Labor OIG determined a California letter carrier misrepresented
  his medical condition to receive OWCP benefits. The carrier alleged his workplace injury induced stress, and a fear of crowds and public places, which
  severely affected his lifestyle. Our surveillance and undercover operations revealed the carrier regularly participated in bowling tournaments and frequently
  traveled to casinos in Las Vegas. In January 2013, the carrier pleaded guilty to one count of workers’ compensation fraud and was sentenced to 1 day of
  imprisonment, 5 years of probation, 200 hours of community service, and ordered to pay $34,000 in restitution. Three months later, the carrier resigned
  from the Postal Service and the termination of OWCP benefits resulted in a $1.5 million cost avoidance.

 A former Indianapolis letter carrier was sentenced in June 2013 to time served and ordered to pay almost $19,000 in restitution to the
  Department of Labor after pleading guilty to one count of false statement or fraud to obtain federal employees’ compensation. The investigation
  determined the carrier misrepresented his physical condition to his personal physician and OWCP officials. OIG agents observed the carrier
  riding go carts, playing laser tag, serving as a camp counselor, and engaging in landscape work, for which he was monetarily compensated,
  for prolonged periods. During landscaping activities, we observed the carrier swinging a sledgehammer and lifting 40-pound bags of topsoil to
  and from a pickup truck. The letter carrier’s OWCP benefits were terminated in November 2012 resulting in a cost avoidance of nearly $1.8 million.
  The Postal Service terminated the letter carrier in December 2012.



Semiannual Report to Congress                                                   8                                                  April 1 — September 30, 2013
                                                                            Mail Theft
 OIG agents interviewed a former rural letter carrier receiving OWCP benefits and determined the claimant had exaggerated her claims.
  She said she could not walk, stand, kneel, squat, climb, bend, reach, and grasp. But agents determined the claimant participated in
  parasailing, water sliding, zip lining, bicycle riding, and was an active contestant on TV game show The Price is Right. All these activities
  exceeded her medical restrictions. The former rural letter carrier pleaded guilty in federal court to federal workers’ compensation fraud
  after providing false statements to receive OWCP benefits. Termination of her workers’ compensation benefits in June 2013 yielded a cost
  avoidance of more than $700,000. Also in June, she was sentenced to 3 years of probation and ordered to pay $30,000 in restitution.

 A former New York letter carrier was sentenced in April 2013 to 2 years’ probation, 750 hours community service, and ordered to pay about $93,000
  in restitution to the Postal Service after pleading guilty to false statements to obtain workers’ compensation benefits. Investigators determined
  the letter carrier engaged in physical activities that exceeded his medical restrictions. During surveillance, agents observed the letter carrier
  participating in various activities, including bowling and golf. The employee admitted he failed to report improvement in his medical condition
  to his doctor and the Department of Labor so he could continue to receive workers’ compensation benefits. The Postal Service terminated the
  employee and the Department of Labor terminated the employee’s workers’ compensation benefits, yielding a cost avoidance of $950,000.

 A 2-year investigation with assistance from the FBI, Social Security Administration OIG, Health and Human Services OIG, the DOL-OIG, and
  the Puerto Rico Police Department, resulted in indictments against providers and beneficiaries. In August, a federal grand jury in Puerto Rico
  charged 10 current and former Postal Service employees and two doctors with fraud associated with OWCP. The indictment charges that
  two doctors falsely evaluated and diagnosed OWCP claimants to justify non-existent injuries, allowing the claimants to fraudulently receive
  OWCP benefits. The investigation also uncovered evidence that 10 current and former Postal Service employees illegally received OWCP
  benefits; eight were treated by one of the indicted doctors. The 10 claimants received approximately $3.5 million in OWCP benefits.


MAIL THEFT
The majority of Postal Service employees work conscientiously to move the nation’s mail to its proper destination. A few employees abuse the public’s trust.
Special agents investigate allegations of postal employees delaying, destroying, or stealing mail. Investigations of suspected employees are referred to
prosecutors or to management for administrative action.

 Earlier this year, agents identified a Texas mail processing clerk as a suspect in a rash of mail thefts in the region. Agents conducted surveillance and
  observed the employee opening envelopes and removing cash from the mail. During an interview with OIG agents, the employee confessed to opening
  about 15-20 envelopes per night and stealing up to $150 per night from the mail during a 3-month period. The employee resigned from the Postal Service in
  June and 2 months later pleaded guilty in federal court to theft of mail by a postal employee. Sentencing is scheduled for November.

 A former New York electronic technician pleaded guilty to theft of mail by an employee; detention, delay, and opening of mail; and wrongful conversion by a
  government employee. The employee was sentenced in August to 366 days in prison, 3 years of supervised release, ordered to pay a $7,500 fine, $7,800
  in restitution, and a special assessment of $2,000. During a surveillance operation, agents observed the employee rifle and steal the contents of multiple
  pieces of mail including cash, jewelry, collectable coins, and baseball cards while giving the appearance of servicing the sorting equipment. The technician
  resigned from the Postal Service.

 A joint investigation with the Postal Inspection Service revealed a Postal Service contract employee in Boston was involved in a scheme to steal Discover
  credit cards from the mail. The investigation determined the employee was responsible for the theft of more than 400 Discover cards, with losses totaling
  more than $183,000. The employee pleaded guilty to credit card fraud and obstruction of correspondence and was sentenced to 51 months in prison,
  and 3 years of supervised release. The court ordered nearly $184,000 in restitution to Discover Financial Services in July 2013.


CONTRACT FRAUD
The Postal Service manages contracts ranging from multimillion dollar national contracts for services, such as transportation networks and IT infrastructures, to
local contracts for supplies and services at individual postal facilities. The OIG aids the Postal Service by investigating allegations of contract fraud, waste, and
misconduct. When our investigations document contract improprieties, special agents present the evidence for criminal and civil prosecution and administrative
remedies. During this reporting period, our 110 contract fraud investigations resulted in five arrests, 10 convictions, and more than $67.9 million in monetary
benefits to the Postal Service.

 The OIG developed information that the owner of a New Jersey construction company responsible for performing contract repairs and renovations was
  engaged in a scheme to defraud the Postal Service. The investigation determined that Franchi Construction Inc. billed the Postal Service for labor not
  performed and equipment never installed in postal facilities. During an interview with agents, the owner of the company admitted to mischarging and
  submitting false claims for work that was never performed. The Postal Service recovered about $23,000 from the construction company and subsequently
  terminated its contract in May 2013. A month later, the construction company was suspended from conducting business with the Postal Service for 1 year.

 A Washington, DC, purchasing specialist was sentenced in federal court in May to 18 months in prison, 3 years of probation, and ordered to pay $40,000
  in restitution to the Postal Service. The purchasing specialist was involved in a bribery scheme that yielded more than $40,000. The specialist received
  the bribes in exchange for using his position to obtain and facilitate contracts for AH Computer Consulting. A complaint to the OIG Hotline in May 2012
  prompted our investigation. In July 2012, the firm was ordered to pay a $75,000 fine and an owner was sentenced to 12 months and 1 day in prison followed
  by 1 year of probation. The Postal Service terminated the purchasing specialist in April 2013 and debarred the company and its owners 3 months later.




Semiannual Report to Congress                                                     9                                                  April 1 — September 30, 2013
                                                                        Appendix A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31.
These reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions
related to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period April 1 — September 30, 2013

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues
audit reports (AR), management advisory (MA) reports, or management alert (MA) reports in accordance with the identified needs of the project.

Summary
                                          Number of                 Funds Put                                      Unsupported
 Risk Categories                            Reports              to Better Use       Questioned Costs           Questioned Cost           Revenue Impact
 Financial and Systems                             18           $10,780,000,000                       —                        —                          —
 Accountability
 Mission Operations                                18               $66,910,934             $716,801,533                $1,307,556                        —
 Revenue and Performance                           23                 $9,152,797             $74,757,101              $68,921,485             $1,156,541,483
 Support Operations                                19              $178,394,355             $313,276,925             $313,276,925              $186,040,728
 SUB-TOTAL                                         78           $11,034,458,086           $1,104,835,559             $383,505,966             $1,342,582,211
 PARIS Risk Model Reports                          36                        —                        —                        —                          —
 TOTAL                                            114           $11,034,458,086           $1,104,835,559             $383,505,966            $1,342,582,211




Fiscal Year 2013 Summary
For the period October 1, 2012 — September 30, 2013

                                          Number of                 Funds Put                                      Unsupported
 Risk Categories                            Reports              to Better Use       Questioned Costs           Questioned Cost           Revenue Impact
 Issued Reports                                   134            $11,301,059,516          $1,491,074,832             $766,476,936             $1,445,927,938
 PARIS Risk Model Reports                          72                        —                        —                        —                          —
 TOTAL                                           206            $11,301,059,516           $1,491,074,832             $766,476,936             $1,445,927,938




Semiannual Report to Congress                                                  10                                             April 1 — September 30, 2013
                                                                                Appendix A

  Definitions:
  Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law,
  regulation, contract, and so forth.

  Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included
  with the amounts shown as Questioned Costs.

  Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

  Revenue Impact. Amounts from revenue-generating functions such as retail sales, rent, leases, or fees that
  were underpaid or not realized. In addition, this category includes increased revenue from existing functions
  and generating revenue from new sources.

  PARIS Risk Models. Performance and Results Information System (PARIS) models with data visualization
  techniques. These models identify operational and financial risks, and enable OA staff to conduct reviews of
  Postal Service functions on a nationwide basis, while also identifying areas of emerging risk — fundamentally
  challenging the way the OIG examines and monitors risk. We present quarterly summary results and trend
  analyses of these risk models to key Postal Service executives and stakeholders.




Reports with Quantifiable Potential Monetary Benefits
                                                                                      Funds Put                                Unsupported
                                                                                   to Better Use      Questioned Costs     Questioned Costs    Revenue Impact
Financial and Systems Accountability
Finance
Using U.S. Postal Service-Specific Assumptions for Calculating the Civil           $1,300,000,000                     —                  —                   —
Service Retirement System Liability; FT-MA-13-023; 9/27/2013
Using U.S. Postal Service-Specific Assumptions for Calculating the Federal         $9,480,000,000                     —                  —                   —
Employees Retirement System Liability; FT-MA-13-024; 9/27/2013
Mission Operations
Delivery and Post Office Operations
City Delivery Street Efficiency Southern, Pacific, and Western Areas; DR-AR-         $28,080,953                      —                  —                   —
13-004; 5/24/2013
U.S. Postal Service Parcel Delivery Lockers; DR-MA-13-002; 5/6/2013                      $1,268,615                   —                  —                   —
Use of Postal Support Employees in Customer Service Operations; DR-AR-13-                       —           $43,233,842                  —                   —
006; 8/16/2013
Vehicle Maintenance Facility Efficiency Capital Metro and Pacific Areas ;             $16,102,750             $1,307,556          $1,307,556                 —
DR-AR-13-007; 9/30/2013
Network Processing and Transportation
Assessment of Overall Plant Efficiency 2013; NO-MA-13-007; 9/26/2013                            —           $628,670,104                 —                   —
Efficiency Review of the Atlanta Network Distribution Center - Processing and         $15,999,708                     —                  —                   —
Transportation; NO-AR-13-005; 8/16/2013
Nationwide Analysis of Tier 1 Network Distribution Centers – Postal Vehicle              $2,997,060                   —                  —                   —
Service Operations ; NO-AR-13-008; 9/27/2013
New Castle and Greensburg, PA Consolidation; NO-AR-13-004; 8/16/2013                            —              $978,954                  —                   —
Springfield Network Distribution Center - Postal Vehicle Service Operations;             $1,570,135                   —                  —                   —
NO-AR-13-006; 8/26/2013
Supervisor Workhours and Span of Control; NO-MA-13-005; 4/4/2013                                —            $11,955,046                 —                   —
Surface Visibility - Transportation Operations - Oklahoma District; NO-AR-13-             $891,713                    —                  —                   —
007; 9/25/2013
Use of Non-Traditional Full-Time and Postal Support Employee Positions in                       —           $30,656,031                  —                   —
Processing Operations; NO-AR-13-003; 5/17/2013




Semiannual Report to Congress                                                       11                                              April 1 — September 30, 2013
                                                                              Appendix A
                                                                                       Funds Put                                  Unsupported
                                                                                    to Better Use     Questioned Costs        Questioned Costs           Revenue Impact
 Revenue and Performance
 Data Analysis and Performance
 Click-N-Ship For Business; DP-AR-13-005; 4/29/2013                                              —                      —                        —               $20,507,473
 Enterprise Data Warehouse Cost of Use; DP-AR-13-009; 8/5/2013                           $3,800,989               $483,808                       —                       —
 Management of Detail Assignments; DP-AR-13-006; 5/23/2013                                       —           $68,838,928               $68,838,928                       —
 Postal Service Management of Closed Post Office Boxes; DP-AR-13-007;                            —                      —                        —               $5,322,026
 6/18/2013
 Postal Service Warranty Process; DP-AR-13-011; 9/25/2013                                $5,351,808              $5,351,808                      —                       —
 Sales and Marketing
 Domestic Negotiated Service Agreements; MS-AR-13-007; 4/29/2013                                 —                 $82,557                 $82,557                $1,164,301
 Electronic Parcel Payment Systems Internal Control Requirements;                                —                      —                        —             $262,419,575
 MS-AR-13-012; 9/27/2013
 Political and Election Mail Sales; MS-AR-13-008; 6/19/2013                                      —                      —                        —               $2,400,000
 Retail Customer Experience Program; MS-AR-13-010; 7/9/2013                                      —                      —                        —              $54,454,156
 Small Business Growth; MS-AR-13-009; 6/20/2013                                                  —                      —                        —             $810,273,952
 Support Operations
 Human Resources and Support
 Grievance Settlements and Payments Follow Up; HR-AR-13-008; 9/27/2013                           —              $3,388,305              $3,388,305                       —
 Overtime Use During Fiscal Years 2011 and 2012; HR-AR-13-002; 7/5/2013                  $6,762,306                     —                        —                       —
 Postal Service Injury Compensation Program; HR-AR-13-004; 7/25/2013                  $171,632,049                      —                        —                       —
 Revenue Generation Patents; HR-MA-13-004; 9/26/2013                                             —                      —                        —             $183,382,092
 Supply Management and Facilities
 Contracting of Real Estate Management Services; SM-AR-13-001; 6/12/2013                         —               $1,703,766             $1,703,766                       —
 Enterprise Technology Services Program; SM-AR-13-003; 7/18/2013                                 —              $77,221,508            $77,221,508                       —
 Independent Audit of Lockheed Martin Mission Systems and Training                               —              $2,400,000              $2,400,000                       —
 Automated Package Processing System Recognition Computer System
 Upgrade Proposal; SM-CAR-13-005; 9/20/2013
 Noncompetitive Purchasing Practices; SM-AR-13-004; 9/25/2013                                    —          $210,563,133              $210,563,133                       —
 Oversight of Performance-Based Contracts; SM-AR-13-002; 6/17/2013                               —              $18,000,213            $18,000,213                       —
 Vacant Land Parcels; SM-AR-13-005; 9/30/2013                                                    —                      —                        —               $2,658,636
 Total                                                                             $11,034,458,086         $1,104,835,559            $383,505,966             $1,342,582,211



Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period April 1 — September 30, 2013

Financial and Systems                                         Fiscal Year 2013 Field Testing Control and             Using U.S. Postal Service-Specific Assumptions
Accountability                                                Oversight Continuous Detached Mail Unit                for Calculating the Civil Service Retirement
                                                              Reviews Quarter 2; FT-MA-13-015; 5/20/2013             System Liability; FT-MA-13-023; 9/27/2013
Finance
                                                              Fiscal Year 2013 Field Testing Control and             Using U.S. Postal Service-Specific Assumptions
Donated Leave Accounting;                                     Oversight Continuous Detached Mail Unit                for Calculating the Federal Employees Retirement
FT-MA-13-012; 4/18/2013                                       Reviews Quarter 3; FT-MA-13-021; 8/30/2013             System Liability; FT-MA-13-024; 9/27/2013
Fiscal Year 2013 Field Testing Control                        Fiscal Year 2013 Field Testing Control and             Using U.S. Postal Service-Specific Assumptions
and Oversight Business Mail Entry Unit/                       Oversight Plant Verified Drop Shipment                 for Calculating the Retiree Health Care
Staged Detached Mail Unit Reviews                             Reviews Quarter 2; FT-MA-13-013; 5/3/2013              Liability; FT-MA-13-022; 9/27/2013
Quarter 2; FT-MA-13-016; 5/20/2013
                                                              Fiscal Year 2013 Field Testing Control and             Information Technology
Fiscal Year 2013 Field Testing Control                        Oversight Plant Verified Drop Shipment Reviews
and Oversight Business Mail Entry Unit/                       Quarter 3; FT-MA-13-020; 8/30/2013                     Availability of Critical Applications;
Staged Detached Mail Unit Reviews                                                                                    IT-AR-13-008; 9/25/2013
Quarter 3; FT-MA-13-018; 8/27/2013                            Overview of U.S. Postal Service Export Controls
                                                              Monitoring Program; FT-MA-13-017; 7/25/2013            Data and Voice Communications;
Fiscal Year 2013 Field Testing Control and                                                                           IT-AR-13-005; 6/14/2013
Oversight Business Reply Mail Reviews                         Sure Money Program; FT-MA-13-014; 5/8/2013
Quarter 3; FT-MA-13-019; 8/30/2013
Semiannual Report to Congress                                                       12                                                    April 1 — September 30, 2013
                                                                       Appendix A
Engineering Systems and Network Operations           Use of Non-Traditional Full-Time and Postal      Virtual Post Office Box Roundtable Discussion
Disaster Recovery Plan – Merrifield, VA              Support Employee Positions in Processing         Summary; MS-WP-13-003; 6/28/2013
Campus; IT-AR-13-007; 9/24/2013                      Operations; NO-AR-13-003; 5/17/2013
                                                                                                      Virtual Post Office Boxes;
LiteBlue Security Assessment;                        Revenue and Performance                          MS-WP-13-002; 4/17/2013
IT-AR-13-009; 9/26/2013
                                                     Data Analysis and Performance                    Support Operations
Management and Utilization of Software
Licenses; IT-AR-13-006; 7/31/2013                    Click-N-Ship for Business; DP-AR-                Human Resources and Support
                                                     13-005; 4/29/2013
Mission Operations                                                                                    Emergency Preparedness for Hurricane
                                                     Delivering Results, Innovation, Value, and       Sandy; HR-AR-13-009; 9/30/2013
Delivery and Post Office Operations                  Efficiency Management; DP-AR-13-008; 6/19/2013
                                                                                                      Employee and Labor Relations Manual
City Delivery Street Efficiency Southern, Pacific,   Enterprise Data Warehouse Cost of                Revisions; HR-AR-13-005; 8/20/2013
and Western Areas; DR-AR-13-004; 5/24/2013           Use; DP-AR-13-009; 8/5/2013
                                                                                                      Grievance Settlements and Payments
Delivery Data Transmission;                          Intelligent Mail Barcode Development and         Follow Up; HR-AR-13-008; 9/27/2013
DR-MA-13-003; 8/6/2013                               Use of Data; DP-AR-13-010; 9/6/2013
                                                                                                      Limited Duty and Rehabilitation Employees
U.S. Postal Service Parcel Delivery                  Management of Detail Assignments;                Returned to Work; HR-AR-13-006; 9/12/2013
Lockers; DR-MA-13-002; 5/6/2013                      DP-AR-13-006; 5/23/2013
                                                                                                      Overtime Use During Fiscal Years 2011
Use of Postal Support Employees in Customer          Monitoring of Government Travel                  and 2012; HR-AR-13-002; 7/5/2013
Service Operations; DR-AR-13-006; 8/16/2013          Card Transactions in the Northeast
                                                     Area; DP-MA-13-004; 8/30/2013                    Postal Career Executive Service I Annual
Vehicle Maintenance Facility Efficiency                                                               Leave; HR-MA-13-003; 7/12/2013
Capital Metro and Pacific Areas;                     Monitoring of Government Travel
DR-AR-13-007; 9/30/2013                              Card Transactions in the Southern                Postal Service Injury Compensation
                                                     Area; DP-MA-13-003; 8/30/2013                    Program; HR-AR-13-004; 7/25/2013
Vehicle Operations - Response to Hurricane
Sandy; DR-AR-13-005; 8/6/2013                        Postal Service Management of Closed Post         Response to Bicameral Task Force on Climate
                                                     Office Boxes; DP-AR-13-007; 6/18/2013            Change; HR-MA-13-002; 4/25/2013
Vehicle Parts Inventory Management -
Pacific Area; DR-AR-13-003; 4/12/2013                Postal Service Warranty Process;                 Revenue Generation Patents;
                                                     DP-AR-13-011; 9/25/2013                          HR-MA-13-004; 9/26/2013
Network Processing and Transportation
                                                     U.S. Postal Service Budget Formulation and       W.F. Bolger Center for Leadership
Altoona, PA Originating and Destinating Mail         Execution Process; DP-MA-13-002; 8/7/2013        Development; HR-AR-13-007; 9/24/2013
Consolidation; NO-AR-13-010; 9/30/2013
                                                     U.S. Postal Service Data Governance;             Supply Management and Facilities
Assessment of Overall Plant Efficiency               DP-AR-13-004; 4/23/2013
2013; NO-MA-13-007; 9/26/2013                                                                         Accenture Federal Services Contracting
                                                     U.S. Postal Service Pay for Performance          Practices; SM-MA-13-005; 6/6/2013
Efficiency Review of the Atlanta Network             Program; DP-MA-13-001; 6/3/2013
Distribution Center – Processing and                                                                  Contracting of Real Estate Management
Transportation; NO-AR-13-005; 8/16/2013              Sales and Marketing                              Services; SM-AR-13-001; 6/12/2013

Modified Altoona, PA Originating and                 Benchmarking of Costing Methodologies;           Enterprise Technology Services
Destinating Area Mail Processing                     MS-MA-13-004; 8/14/2013                          Program; SM-AR-13-003; 7/18/2013
Package; NO-MA-13-006; 8/7/2013                                                                       Independent Audit of Lockheed Martin Mission
                                                     Domestic Negotiated Service Agreements;
Nationwide Analysis of Tier 1 Network                MS-AR-13-007; 4/29/2013                          Systems and Training Automated Package
Distribution Centers – Postal Vehicle Service                                                         Processing System Recognition Computer System
Operations; NO-AR-13-008; 9/27/2013                  Electronic Parcel Payment Systems Internal       Upgrade Proposal; SM-CAR-13-005; 9/20/2013
                                                     Control Requirements; MS-AR-13-012; 9/27/2013
New Castle and Greensburg, PA                                                                         Independent Audit of Siemens Industry, Inc.
Consolidation; NO-AR-13-004; 8/16/2013               Political and Election Mail Sales;               Report on Pre-award Accounting System
                                                     MS-AR-13-008; 6/19/2013                          Review; SM-CAR-13-004; 4/4/2013
Springfield Network Distribution Center
– Postal Vehicle Service Operations;                 Postal Service Product Costing                   Noncompetitive Purchasing Practices;
NO-AR-13-006; 8/26/2013                              Methodologies; MS-MA-13-002; 4/11/2013           SM-AR-13-004; 9/25/2013

Supervisor Workhours and Span of                     Retail Customer Experience Program;              Oversight of Performance-Based
Control; NO-MA-13-005; 4/4/2013                      MS-AR-13-010; 7/9/2013                           Contracts; SM-AR-13-002; 6/17/2013

Surface Visibility – Transportation Operations –     Shortpaid Postage – Information-                 Postal Service Purchasing Policies’
Oklahoma District; NO-AR-13-007; 9/25/2013           Based Indicia Packages, Southern                 Impact on Defective Pricing Fraud
                                                     Area; MS-AR-13-011; 9/17/2013                    Cases; SM-MA-13-006; 9/18/2013
Timeliness of Mail Processing at the
Hartford, CT Processing and Distribution             Small Business Growth;                           Vacant Land Parcels; SM-AR-13-005; 9/30/2013
Center; NO-AR-13-009; 9/30/2013                      MS-AR-13-009; 6/20/2013
                                                     The Postal Service’s Use of Social
                                                     Media; MS-MA-13-003; 8/1/2013

Semiannual Report to Congress                                                 13                                         April 1 — September 30, 2013
                                                                    Appendix A
PARIS Risk Models
Complete listing of all OIG PARIS Risk Models issued to Postal Service management.

For the period April 1 — September 30, 2013

Delivery and Post Office Operations                Fiscal Year 2013 Security Risk Model               Sales and Marketing
                                                   Quarter 3; HR-PM-13-014; 8/28/2013
Fiscal Year 2013 City Delivery Efficiency Risk                                                        Fiscal Year 2013 Cost, Pricing, and Rates Risk
Model Quarter 2; DR-PM-13-003; 5/17/2013           Fiscal Year 2013 Workplace Environment Risk        Model Quarter 2; MS-PM-13-009; 5/20/2013
                                                   Model Quarter 2; HR-PM-13-010; 5/28/2013
Fiscal Year 2013 City Delivery Efficiency Risk                                                        Fiscal Year 2013 Cost, Pricing, and Rates Risk
Model Quarter 3; DR-PM-13-004; 8/5/2013            Fiscal Year 2013 Workplace Environment Risk        Model Quarter 3; MS-PM-13-012; 8/15/2013
                                                   Model Quarter 3; HR-PM-13-013; 8/22/2013
Finance                                                                                               Fiscal Year 2013 Retail Customer Service Risk
                                                   Information Technology                             Model Quarter 2; MS-PM-13-008; 5/16/2013
Fiscal Year 2013 Bank Secrecy Act Risk
Model Quarter 2; FT-PM-13-006; 5/8/2013            Fiscal Year 2013 Information Technology Security   Fiscal Year 2013 Retail Customer Service Risk
                                                   Risk Model Quarter 2; IT-PM-13-003; 6/7/2013       Model Quarter 3; MS-PM-13-010; 8/15/2013
Fiscal Year 2013 Bank Secrecy Act Risk
Model Quarter 3; FT-PM-13-009; 8/7/2013            Fiscal Year 2013 Information Technology Security   Fiscal Year 2013 Revenue Generation
                                                   Risk Model Quarter 3; IT-PM-13-004; 7/22/2013      and Protection Risk Model Quarter
Fiscal Year 2013 Business Mail Entry Unit Risk                                                        2; MS-PM-13-007; 5/16/2013
Model Quarter 2; FT-PM-13-007; 5/16/2013           Network Processing and Transportation
                                                                                                      Fiscal Year 2013 Revenue Generation
Fiscal Year 2013 Business Mail Entry Unit Risk     Fiscal Year 2013 Machines that Speak Risk          and Protection Risk Model Quarter
Model Quarter 3; FT-PM-13-011; 8/7/2013            Model Quarter 2; NO-PM-13-010; 5/30/2013           3; MS-PM-13-011; 8/19/2013
Fiscal Year 2013 Financial Cost and Control Risk   Fiscal Year 2013 Machines that Speak Risk          Supply Management and Facilities
Model Quarter 2; FT-PM-13-008; 5/15/2013           Model Quarter 3; NO-PM-13-012; 8/8/2013
                                                                                                      Fiscal Year 2013 Real Estate Risk Model
Fiscal Year 2013 Financial Cost and Control Risk   Fiscal Year 2013 Network and Delivery              Quarter 2; SM-PM-13-006; 5/16/2013
Model Quarter 3; FT-PM-13-010; 8/20/2013           Optimization Risk Model Quarter
                                                   2; NO-PM-13-011; 5/15/2013                         Fiscal Year 2013 Real Estate Risk Model
Human Resources and Support                                                                           Quarter 3; SM-PM-13-007; 8/8/2013
                                                   Fiscal Year 2013 Network and Delivery
Fiscal Year 2013 Green Risk Model                  Optimization Risk Model Quarter 3;                 Fiscal Year 2013 Supplier Solvency Risk
Quarter 2; HR-PM-13-008; 5/15/2013                 NO-PM-13-015; 9/13/2013                            Model Quarter 2; SM-PM-13-005; 5/15/2013
Fiscal Year 2013 Green Risk Model                  Fiscal Year 2013 Risk Model - Air Transportation   Fiscal Year 2013 Supplier Solvency Risk
Quarter 3; HR-PM-13-015; 9/12/2013                 Quarter 2; NO-PM-13-009; 5/14/2013                 Model Quarter 3; SM-PM-13-008; 8/8/2013
Fiscal Year 2013 Human Capital Optimization        Fiscal Year 2013 Risk Model - Air Transportation
Risk Model Quarter 2; HR-PM-13-011; 5/28/2013      Quarter 3; NO-PM-13-014; 8/13/2013
Fiscal Year 2013 Human Capital Optimization Risk   Fiscal Year 2013 Surface Transportation Risk
Model 2013 Quarter 3; HR-PM-13-012; 8/15/2013      Model Quarter 2; NO-PM-13-008; 5/7/2013
Fiscal Year 2013 Security Risk Model               Fiscal Year 2013 Surface Transportation Risk
Quarter 2; HR-PM-13-009; 5/16/2013                 Model Quarter 3; NO-PM-13-013; 8/13/2013




Semiannual Report to Congress                                              14                                            April 1 — September 30, 2013
                                                                                   Appendix B
APPENDIX B
Findings of Questioned Costs
For the period April 1 — September 30, 2013

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.


                                                                                                                                            Unsupported Costs
                                                                                                                                                   Included in
Description                                                                                     Number of Reports   Questioned Costs         Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period           1                       $4,726,009                  $2,251,179
Reports requiring management decision that were issued during the reporting period                   16                   $1,104,835,559            $383,505,966
Totals                                                                                               17                   $1,109,561,568             $385,757,145


Reports for which a management decision was made during the reporting period (i&ii)                  16                   $1,107,161,568             $383,357,145
    (i) Dollar value of disallowed cost1                                                             8                     $898,773,496             $256,685,584
    (ii) Dollar value of cost not disallowed2                                                        9                     $208,388,072              $126,671,561
Reports for which no management decision was made by the end of the reporting period.                1                       $2,400,000                  $2,400,000
Negotiations are ongoing.
Reports for which no management decision was made within 6 months of issuance                        —                               —                           —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                          —                               —                           —
(See Note 2 for a list of individual reports)
Contract reports with a significant audit finding                                                    —                               —                           —
(See Note 3 for a list of individual reports)



1
    Management partially agreed with the monetary impact in one audit report.
2
    Management partially disagreed with the monetary impact in one audit report.

Note 1 — Reports for which no management decision was made within 6 months of issuance:
None this report period.
Note 2 — Reports for which no management decision was made within 1 year of issuance:
None this report period.
Note 3 — Contract reports with significant audit finding:
None this report period.




Semiannual Report to Congress                                                           15                                        April 1 — September 30, 2013
                                                                                 Appendix C
APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period April 1 — September 30, 2013

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds
that can be put to better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.

Description                                                                                   Number of Reports                                   Dollar Value
Reports for which no management decision was made at the beginning of the reporting period           —                                                      —
Reports issued during the reporting period                                                           13                                         $11,034,458,086
Totals                                                                                               13                                         $11,034,458,086


Reports for which a management decision was made during the report period1                           13                                         $11,034,458,086
    (i) Value of recommendations agreed to by management                                              9                                         $10,824,842,385
    (ii) Value of recommendations that were not agreed to by management                               6                                            $209,615,701
Reports for which no management decision was made by the end of the reporting period                 —                                                      —
Reports for which no management decision was made within 6 months of issuance                        —                                                      —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                          —                                                      —
(See Note 2 for a list of individual reports)

Management partially agreed with the monetary impact of one audit report.
1




Note 1 Reports for which no management decision was made within 6 months of issuance:
None for this report period.
Note 2 Reports for which no management decision was made within 1 year of issuance:
None for this report period.




Semiannual Report to Congress                                                           16                                     April 1 — September 30, 2013
                                                                                         Appendix D
Appendix D
Other Impacts
For the period April — September 30, 2013

Overview

Many of our audit reports identify areas for improvements that results in non-monetary benefits to the Postal Service. These benefits include improvements
to service, protection of assets, and improvements in the reliability of data.
                                                                                                                           Type of Measure                     Value or Amount
IMPROVED SERVICES
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility                         Number of Recommendations                         33
of its products and services
Number of customer service audits conducted                                                                                Number of Audits                                  23


SAFEGUARDING ASSETS
Assets or Accountable Items at Risks
Inadequate internal controls put the value of assets or accountable items (e.g., cash and stamps) at risk of loss          Dollar Value                              $24,105,258
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, etc.) at risk of loss due to inadequate
                                                                                                                           Dollar Value                                $777,509
physical protection.
Recommendations that address the safety and security of Postal Service employees and/or the work environment               Number of Recommendations                         20
Number of employee/facility safety and security audits conducted                                                           Number of Audits                                  21
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks),                                      Dollar Value                             $102,379,861
and employee work time at risk of loss
Dollar value of data at risk                                                                                               Dollar Value                             $144,719,892
Number of data security/IT security audits conducted                                                                       Number of Audits                                  10
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing
                                                                                                                           Dollar Value                           $1,638,114,821
(mailer seeking alternative solutions for current services).
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed.          Dollar Value                                       —
Goodwill / Branding
An adverse impact on goodwill is an actual event/problem that harms the Postal Service’s reputation or a potential problem
                                                                                                                           Number of Issues Identified                       26
that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable,
                                                                                                                           Dollar Value                                       —
product specific, or institutional cost
Capital Investment Savings Shortfall and Predicted Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and
the actual savings realized, and the difference between the savings predicted by the Postal Service for a project
                                                                                                                           Dollar Value                               $1,460,848
(e.g., capital investment, consolidation, etc.) and the actual savings realized or the OIG estimate of savings that will
be realized
Potential Additional Revenue
Revenue the Postal Service could potentially generate for goods delivered or services rendered based on suggested
                                                                                                                           Dollar Value                              $14,307,898
improvements


RELIABILITY OF DATA
Records at Risks
Data at risk of corruption or loss due to inadequate internal controls and/or protection.                                  Number of Data Records at Risk                 12,142
Dollar value of data used to support management decisions that is not fully supported or completely accurate.              Dollar Value                           $2,465,121,829




Semiannual Report to Congress                                                                    17                                                 April 1 — September 30, 2013
                                                                              Appendix E
APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through September 30, 2013

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the
end of the reporting period.


                                        Report Title, Recommendation Summary
                                        	            R = Recommendation number
 Report Number         Issue Date       	            TID = Target Implementation Date
 FF-MA-08-001          07/21/2008       Fiscal Year 2008 – Use of No-Fee Money Orders

                                        R-2 — 	 Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal Service’s
                                                exposure to financial loss. TID: September 2013
 IS-AR-09-001          10/08/2008       Electronic Travel Voucher System Controls

                                        R-1 — 	 Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                government lodging rate, whenever practical. TID: February 2013

                                        R-2 — 	 Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify exceeding the
                                                government lodging rate within the notes on the electronic voucher. TID: February 2013
 IS-AR-09-004          02/20/2009       Access Controls in the Enterprise Data Warehouse

                                        R-3 — 	 Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by Postal Service
                                                Handbook AS-805-A, Application Information Security Assurance Process. TID: September 2013
 EN-AR-09-005          09/28/2009       Performance Goals for Market-Dominant Products

                                        R-1 — 	 Document the methodology used to develop future performance goals for market-dominant products. TID: December 2012
 IS-AR-10-002          12/22/2009       General Control Review of Human Resources Shared Service Center

                                        R-2 — 	 Initiate appropriate security clearance investigations for all employees in sensitive positions at the Human Resources Shared
                                                Service Center. TID: December 2012
 IS-AR-10-008          05/04/2010       Certification and Accreditation Process

                                        R-4 —	 Hold portfolio managers accountable to complete the Certification and Accreditation process within the Technology Solutions Life
                                               Cycle prior to implementing critical applications into the production environment. TID: December 2013

                                        R-5 —	 Complete the Certification and Accreditation process for all critical applications currently in production, as required by Handbook
                                               AS-805, Information Security. TID: December 2013

                                        R-6 —	 Ensure the portfolio managers work with the executive sponsors to initiate the recertification process for critical applications
                                               assigned to their functional areas as required by Handbook AS-805, Information Security. TID: December 2013

                                        R-9 —	 Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and recertification letters
                                               associated with the critical applications. TID: May 2014

                                        R-12—	 Input the Certification and Accreditation documentation for all critical applications into the central repository. TID: December 2013
 CA-AR-10-004          05/27/2010       Contract Payment Terms

                                        R-1 — 	 Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other sections as
                                                necessary, with language stating that when contracting officers negotiate payment terms other than net 30 days they include the
                                                business rationale and associated documentation for the payment terms in the contract file. TID: February 2014
 CI-MA-10-001          06/18/2010       Civil Service Retirement System Overpayment by the Postal Service

                                        R-1 — 	 Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return of the $75
                                                billion overpayment or to otherwise realize the benefit of this overpayment to the Postal Service. TID: None
 MS-AR-10-004          07/28/2010       Efficiency of Retail Customer Service Operations

                                        R-2 — 	 Explore opportunities to consolidate business mail acceptance operations at post offices, stations, and branches. TID: August 2014
 DA-MA-10-004          08/31/2010       Postal Service Patent Management

                                        R-1 — 	 Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength. TID: June 2012
 CA-AR-10-005          09/20/2010       U.S. Postal Service Purchasing Policies

                                        R-5 —	 Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data reported should
                                               include, but not be limited to, total dollars committed both competitively and noncompetitively; and the contractor, dollar value,
                                               and noncompetitive justifications for noncompetitive contracts. The tracking mechanism should be able to identify when a
                                               noncompetitive contract has crossed the review and approval threshold based on modification after initial award.
                                               TID: February 2012


 Semiannual Report to Congress                                                        18                                                          April 1 — September 30, 2013
                                                                       Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
IS-AR-10-014       09/23/2010   Controls Over Payment Card Transaction Data

                                R-1 — 	 Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and milestones
                                        needed to achieve and maintain Payment Card Industry-Data Security Standards compliance. TID: December 2014
NL-AR-10-009       09/29/2010   Management of Mail Transport Equipment - National Analysis

                                R-1 — 	 Further develop, update, and reinforce national mail transport equipment policies and procedures contained in the Postal
                                        Operations Manual and the Postal Handbook PO-502, Container Methods, which address mail transport equipment inventory
                                        and accountability controls, including validating customer mail transport equipment needs as well as tracking and reconciling mail
                                        transport equipment loaned to mailers and other external customers. TID: February 2014
CA-AR-10-006       09/30/2010   Certification Process for Electronic Payments

                                R-1 — 	 Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and certification of
                                        invoices. TID: October 2012

                                R-2 — 	 Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                        Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                        correct and goods and services were received. TID: February 2014

                                R-3 — 	 Develop and implement written procedures for receiving invoices for annual highway contract route services and verifying that
                                        services were rendered prior to payment. TID: October 2014

                                R-5 — 	 Review the $7.6 million in payments made more than 30 days after contract end dates and collect overpayments.
                                        TID: November 2013

                                R-8 — 	 Ensure that Utility Management System designated official contact information is accurate and that the system requires positive
                                        certification by the designated official before invoice payment. TID: November 2013
NL-MA-11-001       12/06/2010   Surface Mail Classes on Air Transportation Networks

                                R-1 — 	 Verify that actions already taken related to minimizing surface mail classes on the FedEx Day-Turn network are applied to other air
                                        networks to ensure transportation managers use surface transportation, instead of the FedEx Night-Turn, commercial air carrier,
                                        United Parcel Service, and Christmas air transportation networks to move surface mail types where possible. TID: December 2012

                                R-2 — 	 Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and Revenue
                                        Analysis data, to monitor and track the volume and avoid additional costs for flying surface mail classes on the FedEx Night-Turn,
                                        commercial air carrier, United Parcel Service, and Christmas air transportation networks. TID: September 2011

                                R-3 — 	 Reinforce existing policies and procedures for the processing and assigning of mail to air and surface transportation. TID: None
NO-AR-11-004       12/14/2010   Houston, TX Processing and Distribution Center Mail Consolidation

                                R-1 — 	 Pursue expansion of the North Houston Processing and Distribution Center and consolidate the Houston Processing and
                                        Distribution Center’s mail processing operations into the expanded facility, by fiscal year 2013. TID: September 2013
FF-AR-11-004       12/15/2010   Express Mail Guarantees

                                R-5— 	 Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate risk and
                                       identify necessary changes in service in order to make better business decisions for guarantees. TID: July 2013
IT-AR-11-004       03/16/2011   Computer Incident Data Reliability

                                R-3 — 	 Integrate the Data Loss Prevention and Security Information Manager applications with the security incident management system to
                                        ensure a single incident data repository. TID: September 2013

                                R-4 — 	 Either modify the existing incident management system or pursue development of a new system that enforces date and time value
                                        sequence and data validation. TID: September 2014
DA-MA-11-002       04/08/2011   Postal Service Patent Management Continuation

                                R-1 — 	 Work closely with subject matter experts to review highly rated patents to draft claims as appropriate. TID: September 2013

                                R-3 — 	 Ensure the Postal Service has an effective patent management process and comprehensive licensing program in place. This
                                        establishes control that protects intellectual capital and provides an appropriate return on investment. TID: September 2013
CA-AR-11-004       04/27/2011   Internal Controls over the Contract Close-out Process

                                R-3 — 	 Establish a periodic control to ensure category management center personnel follow records management requirements for
                                        contract files, including, but not limited to retaining records for the required 6 years. TID: December 2013
HR-AR-11-004       05/27/2011   Compliance with Occupational Safety and Health Administration Recordkeeping Requirements

                                R-2 — 	 Revise the Postal Service Occupational Safety and Health Administration Recordable Date policy to better clarify how to
                                        determine Occupational Safety and Health Administration recordable dates when they differ from the initial injury or illness date.
                                        TID: March 2012

                                R-4 — 	 Establish mandatory training for officials responsible for determining Occupational Safety and Health Administration recordable
                                        cases and completing related forms. TID: December 2011


Semiannual Report to Congress                                                 19                                                           April 1 — September 30, 2013
                                                                       Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
DA-AR-11-008       06/08/2011   Conflicts of Interest: Facility Leases and Contract Delivery Services

                                R-1 — 	 Revise the Postal Service’s policy for leasing property under 3,000 square feet from employees or relatives to include an ethics
                                        review. TID: December 2013

                                R-2 — 	 Evaluate the universe of potential facility lease conflicts and develop an action plan to minimize active and future conflicts. TID:
                                        December 2013

                                R-3 — 	 Implement a control to systemically identify, monitor, and resolve potential conflicts of interest with facility leases and, if necessary,
                                        request waivers for leases that represent conflicts. TID: December 2013
HR-AR-11-005       08/05/2011   Postal Service Facility Security

                                R-3 — 	 Issue supplemental guidance and enhance internal controls to ensure security control officers conduct facility security surveys as
                                        required, corrective actions are taken to address security deficiencies, and security control officers take the mandatory security
                                        training. TID: August 2012
HR-AR-11-006       08/08/2011   2009 Pay for Performance Program

                                R-1 — 	 Clarify policies and procedures to better define the relationship between the national performance assessment and core
                                        requirements, and the role of higher level management in the pay for performance process. TID: April 2013

                                R-2 — 	 Establish and implement mandatory training events that educate new and existing participants and managers on policy, roles and
                                        responsibilities, goal setting, and the program’s objectives. TID: April 2013

                                R-3 — 	 Evaluate the effectiveness of the current process used to establish and use behavioral core objectives to rate employees’
                                        performance. TID: April 2013
DA-AR-11-010       08/30/2011   Intelligent Mail: Realizing Revenue Assurance Benefits

                                R-1 — 	 Establish timeframes for implementing the enhanced/expanded automated verifications as described in the original Intelligent Mail
                                        infrastructure Decision Analysis Report. TID: January 2013

                                R-2 — 	 Develop a tolerance level for low scan rates to use for exception reporting. TID: January 2013

                                R-3 — 	 Develop a process for identifying the cause(s) of low scan rates for customer follow-up as warranted. TID: January 2013
FF-AR-11-013       08/30/2011   Postal Service Refunds

                                R-2 — 	 Analyze and establish an administrative and minimum fee that will cover processing costs. TID: January 2014
CRR-AR-11-003      09/06/2011   Service Performance Measurement Data - Commercial Mail

                                R-1 — 	 Establish milestones for implementing recovery of Full-Service Intelligent Mail Barcode discounts provided to mailers when
                                        Full-Service mailings do not meet the specific requirements for the discounts received. TID: November 2013
IT-AR-11-008       09/14/2011   Remote Access Controls

                                R-1 — 	 Implement two-factor authentication to comply with Handbook AS-805 requirements and to meet Payment Card Industry –
                                        Data Security Standards. TID: December 2013

                                R-11 — 	Suspend remote access for all employees or contractors until they complete required security awareness training.
                                        TID: December 2013
HR-AR-11-002       09/19/2011   Postal Service Work Rules and Compensation Systems

                                R-3 — 	 A comprehensive study to determine the optimal incentive-based carrier compensation system. TID: June 2013
FF-AR-11-015       09/23/2011   Business Mail Acceptance Centralization Process

                                R-2 — 	 Require each district to conduct a centralization feasibility study, document the results, and take action based on the results
                                        of the study, as appropriate. TID: October 2013

                                R-3 — 	 Manage business mail entry workhour usage to achieve 93 percent efficiency and develop tools to monitor performance.
                                        TID: October 2013

                                R-4 — 	 Establish annual goals for business mail entry workhour efficiency to include measuring performance against goals.
                                        TID: October 2013




Semiannual Report to Congress                                                  20                                                            April 1 — September 30, 2013
                                                                      Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
CA-AR-11-007       09/30/2011   Contract Postal Units Contract Oversight

                                R-1 — 	 Require Contract Postal Unit contractors to submit invoices for payment. TID: November 2013

                                R-2 — 	 Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices prior
                                        to payment, using data maintained in the Contract Postal Unit Technology system. TID: November 2013

                                R-3 — 	 Establish a mandatory training procedure to ensure all contract officer representatives receive training of appointed duties within
                                        2 weeks of notification of the contracting officer’s representative appointment. TID: November 2013

                                R-4 — 	 Develop an oversight mechanism to monitor whether contracting officer’s representatives conduct quarterly performance
                                        and annual financial reviews, obtained completed appointment letters, and retain contract postal unit contracts in the contract
                                        administrative files. TID: November 2013
HR-AR-11-007       09/30/2011   Postal Service Workers’ Compensation Program

                                R-5 — 	 Develop mandatory and refresher training for Postal Service officials responsible for workers’ compensation to ensure they are
                                        aware of their roles and responsibilities for workers’ compensation. TID: September 2013
MS-AR-11-007       09/30/2011   Strategic Approaches to Revenue Protection

                                R-1 — 	 Work with a broadened group of internal and external stakeholders to prepare for streamlining the entry of business mail, accelerate
                                        the timeline for streamlined acceptance and verification, and seek to leverage technology to provide revenue protection for Basic
                                        Service Intelligent Mail and non-automated volumes. TID: October 2013
IT-AR-12-001       10/21/2011   State of Corporate Information Technology Security

                                R-2 — 	 Complete the certification and accreditation process for the remaining national applications. TID: December 2013

                                R-4 — 	 Implement a corporate-wide encryption solution to enhance the sensitive data protection effort. TID: October 2013
CA-AR-12-001       11/02/2011   Contracting Opportunities and Impact of the Service Contract Act

                                R-2 — 	 Review the benefits of outsourcing cleaning/janitorial service positions and postal service vehicle driver positions and work
                                        with Supply Management to restructure those positions to achieve the most cost effective solution. TID: March 2013

                                R-3 — 	 Working with Supply Management and Postal Service program officials, ensure that appropriate financial data are collected to aid
                                        in making in-sourcing/outsourcing decisions. TID: March 2013
HR-AR-12-001       11/14/2011   Postal Service Health and Safety Program

                                R-1 — 	 Review and revise, as appropriate, supervisor performance measures to place a higher priority on maintaining a safe and healthy
                                        work environment; for example: performance measures could be linked to the number of abated and/or unabated safety hazards.
                                        TID: October 2011
IT-AR-12-002       01/09/2012   Patch Management Processes

                                R-1 — 	 Ensure that all operating system and database patches are tested, documented, and implemented as required by
                                        Handbook AS-805, Information Security. TID: January 2014

                                R-2 — 	 Ensure that administrators obtain required policy exception approvals when system patches are not applied. TID: January 2014

                                R-3 — 	 Ensure that written procedures are developed to define the patch management process for each group, operating system, and
                                        database to include test and back-out plans. TID: January 2014

                                R-4 — 	 Ensure that configuration management inventory records are reconciled to the actual servers and databases for their respective
                                        group. TID: December 2013

                                R-5 — 	 Work together to implement a process to verify that required operating system and database patches distributed to the mail
                                        processing plants are applied. TID: September 2013

                                R-6 — 	 Implement a common method for all entities to track information technology asset and patch information. TID: July 2014

                                R-7 — 	 Ensure vulnerability mediation training is provided to all employees and contractors responsible for enterprise patch management.
                                        TID: July 2014

                                R-8 — 	 Conduct risk assessments and cost analyses to develop an enterprise-wide migration plan for upgrading unsupported operating
                                        systems and databases to vendor-supported software. TID: July 2014

                                R-9 — 	 Adopt a method to identify, capture, and report patch management metrics to assist with oversight of the patch management
                                        process and facilitate related business and security decisions. TID: July 2014
IT-AR-12-003       01/09/2012   Fiscal Year 2011 Information Technology Internal Controls

                                R-1 — 	 Implement corrective actions to address all open issues noted in this report for fiscal years 2010 and 2011. TID: December 2013




Semiannual Report to Congress                                                 21                                                           April 1 — September 30, 2013
                                                                       Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
MS-AR-12-002       01/12/2012   Mail Verification Procedures at Detached Mail Units

                                R-1 — 	 Review automation efforts to date to identify improvements that can be made in the interim while mailers continue to implement
                                        Intelligent Mail barcode technologies. TID: June 2013

                                R-2 — 	 Continue ongoing mail verification training efforts while detached mail unit employees continue to use manual mail verification
                                        processes. TID: October 2013

                                R-3 — 	 Enhance automated systems to notify managers when acceptance employees override Mail Evaluation Readability Lookup
                                        INstrument results. TID: June 2013

                                R-4 — 	 Develop and implement automated tools that managers can use to monitor and evaluate detached mail unit staffing and scheduling.
                                        TID: June 2013
CI-AR-12-004       02/02/2012   Domestic Mail Manual Preparation and Acceptance Mail Instructions

                                R-1 — 	 Combine and remove all duplications in the Domestic Mail Manual, Quick Service Guides, Business Mail Acceptance, Job Aids,
                                        and Customer Support Rulings; and publish a new document available to all mailers online. TID: November 2013

                                R-2 — 	 Migrate to a one permit per customer requirement using PostalOne!. TID: August 2013

                                R-3 — 	 Archive all PostalOne! deleted or canceled permits. TID: April 2015
NL-AR-12-001       02/02/2012   Postal Vehicle Service Transportation Routes – Margaret L. Sellers Processing and Distribution Center

                                R-2 — 	 Verify the reallocation of 2,424 workhours within existing postal vehicle service (PVS) schedules and reallocate an additional 5,728
                                        workhours within PVS schedules to accommodate future Flats Sequencing System implementation. TID: November 2012
NL-AR-12-003       03/12/2012   Density of First-Class Mail on Air Transportation

                                R-3 — 	 Develop targeted secondary sort programs to process First-Class Mail bound for air transportation to maximize container space.
                                        TID: April 2013
HR-AR-12-002       03/30/2012   Postal Service Mail Security

                                R-3 — 	 Develop and implement training for contract postal unit personnel to ensure they understand their responsibilities regarding
                                        safeguarding mail and accounting for Registered Mail. TID: July 2012
NL-AR-12-005       04/25/2012   Postal Vehicle Service — Nationwide Analysis

                                R-3 — 	 Encourage area Postal Service officials to negotiate the use of split days off with local union officials where possible to reduce
                                        operating costs through staff reductions. TID: March 2012
NO-MA-12-001       04/27/2012   Assessment of Overall Plant Efficiency 2012

                                R-1 — 	 Reduce 14,268,171 workhours by fiscal year 2014 with an associated economic impact of $664,997,872. TID: September 2014
MS-AR-12-003       05/04/2012   Package Delivery Growth

                                R-2 — 	 Develop enhancements to the CustomerFirst! system to ensure that the data and information contained within are reliable and
                                        useful. TID: January 2015

                                R-4 — 	 Evaluate the feasibility of offering a local product the customer either arranges to have picked up or takes to the local Post Office for
                                        sortation and delivery without involving a mail processing plant. TID: December 2013

                                R-5 — 	 Continue to pursue legislative change that will allow the Postal Service to ship beer and wine. TID: January 2014

                                R-6 — 	 Evaluate the feasibility of offering an international service that will allow customers the option of prepaying customs duties and
                                        taxes. TID: September 2013
NL-AR-12-006       05/29/2012   POSTAL SERVICE INITIATIVE: Consolidation of Mail for Transportation Between Network Distribution Centers

                                R-3 — 	 Add Jacksonville Network Distribution Center’s Puerto Rico Highway Contract Routes 32202 and 32204 into the consolidation
                                        initiative. TID: September 2012
DR-AR-12-001       06/05/2012   City Delivery — Street Efficiency San Diego District

                                R-1 — 	 Reduce 83,943 workhours to achieve an associated economic impact of more than $3.3 million annually or $6.8 million over
                                        2 years. TID: October 2014
NO-AR-12-005       06/05/2012   Efficiency Review of the Cleveland, OH Processing and Distribution Center

                                R-1 — 	 By fiscal year 2017, reduce workhours by 352,388 to produce a cost avoidance of $22.7 million over the following 2 years,
                                        or through consolidations, increase mail volume by 377 million, or a combination of workhours reductions and mail volume
                                        increases that will achieve the median productivity level of 1,069 pieces per hour. TID: September 2014




Semiannual Report to Congress                                                 22                                                           April 1 — September 30, 2013
                                                                      Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
DR-AR-12-002       06/19/2012   City Delivery — Excess Routes

                                R-1 — 	 Eliminate 33 excess city delivery routes in their respective districts. TID: May 2013

                                R-2 — 	 Review delivery units consistently using fewer than projected street hours to make appropriate route adjustments, eliminations,
                                        and consolidations. TID: May 2013

                                R-3 — 	 Reallocate the 33 assigned Postal Service-owned delivery vehicles from the eliminated city routes to rural routes to achieve
                                        an associated economic impact of $250,110 annual discounted savings or $500,220 over 2 years. TID: June 2013
IT-AR-12-008       06/25/2012   Security Awareness Training Program

                                R-3 — 	 Establish a monitoring process to track user compliance with Handbook AS-805, Information Security, information security
                                        awareness training requirements. TID: July 2013

                                R-4 — 	 Work with applicable managers to take appropriate action, including suspending access if necessary, to ensure employees and
                                        contractors complete the security awareness training in compliance with Handbook AS-805, Information Security, and regulatory
                                        requirements. TID: January 2014
DA-MA-12-005       07/16/2012   21st Century Post Office: Non-Postal Products and Services

                                R-1 — 	 Develop a strategy to identify, evaluate, and offer the most promising non-postal products and services, including how to overcome
                                        identified barriers, when legislation permits. TID: June 2013
NO-AR-12-007       08/03/2012   Efficiency Review of the Los Angeles Network Distribution Center

                                R-1 — 	 Reduce workhours by 200,019 by fiscal year 2017 to produce an annual cost avoidance of about $6.5 million, or increase volume
                                        by 39 million pieces, or combine workhour reductions and mail volume increases that will achieve the above average median
                                        productivity level of 117 pieces per hour. TID: February 2015
CI-AR-12-006       08/14/2012   Delivery Fleet Strategies

                                R-2 — 	 Establish an annual new vehicle replacement strategy, as part of a comprehensive fleet management strategy, to replace part
                                        of the fleet each year, spread out the expenditures over time, and ensure the overall operational functionality of the fleet.
                                        TID: September 2016
DR-AR-12-003       08/16/2012   City Delivery — Street Efficiency Capital District

                                R-1 — 	 Reduce 110,740 workhours to achieve an associated economic impact of $4.5 million annually, or $9 million over 2 years.
                                        TID: October 2014
DR-AR-12-004       08/16/2012   City Delivery — Street Efficiency Louisiana District

                                R-1 — 	 Reduce 107,550 workhours to achieve an associated impact of more than $4.4 million annually, or $8.8 million over 2 years.
                                        TID: September 2014
EN-AR-12-003       08/17/2012   Efficiency of Customer Service Operations

                                R-3 — 	 Provide training as needed to customer service managers that would enable them to effectively use managerial reports and tools.
                                        TID: September 2013
DR-AR-12-005       08/21/2012   Carrier Optimal Routing System Phase ll

                                R-1 — 	 Continue to pursue funding to resolve performance issues with the Web Carrier Optimal Routing system and implement the
                                        web-based program nationwide. TID: September 2013

                                R-2 — 	 Re-emphasize performing route adjustments using the Carrier Optimal Routing system to achieve an annual economic impact
                                        of more than $84 million. TID: None

                                R-3 — 	 Cross-train existing and additional personnel in both Carrier Optimal Routing system database preparation and route adjustment
                                        processes to ensure the availability of adequately trained resources. TID: February 2013
DR-AR-12-006       08/24/2012   City Delivery Staffing

                                R-1 — 	 Balance the number of full-time carriers per route and manage labor cost within established fiscal year budgets. TID: None

                                R-2 — 	 Continue pursuing the ability to increase the number of part-time, non-career flexible employees at installations nationwide in
                                        the city letter carrier craft to reduce labor costs. TID: None
DR-MA-12-002       08/24/2012   City Delivery Route Optimization Pilot Initiative

                                R-2 — 	 Execute a new initiative to maximize savings by using lessons learned and data results from the pilot with the goal of optimizing
                                        the full- and part-time staff mix. TID: None




Semiannual Report to Congress                                                 23                                                         April 1 — September 30, 2013
                                                                           Appendix E
                                   Report Title, Recommendation Summary
                                   	            R = Recommendation number
 Report Number      Issue Date     	            TID = Target Implementation Date
MS-AR-12-007       09/10/2012    Customer Complaint Resolution Process

                                 R-2 — 	 Identify deficiencies and desired enhancements for the Enterprise Consumer Care system and take necessary action to notify the
                                         Information Technology department. TID: March 2014

                                 R-3 — 	 Develop a mechanism for tracking Enterprise Consumer Care system usage and wait times and ensuring that current archiving
                                         processes and system outage records are continued. TID: March 2014
IT-AR-12-009       09/12/2012    Security of File Transfer Protocol Transmissions

                                 R-1 — 	 Assign a controlling authority the responsibility for managing all electronic file transfer activities and enforcing electronic file transfer
                                         policies. TID: September 2017

                                 R-3 — 	 Direct the controlling authority identified in recommendation 1 to develop a business case solution to mitigate and, ultimately,
                                         eliminate the use of file transfer protocol transmissions to ensure the protection of sensitive data in accordance with
                                         Handbook AS-805, Information Security. TID: May 2013

                                 R-4 — 	 Conduct periodic security assessments to identify and monitor file transfer protocol usage throughout the Postal Service network.
                                         TID: September 2013

                                 R-5 — 	 Identify, monitor, and remove all unnecessary file transfer protocol services running on all servers and mainframes and identify
                                         the related sensitive applications. TID: September 2013

                                 R-6 — 	 Implement a secure electronic file transfer protocol for receiving manifest files from external business partners.
                                         TID: September 2017
FI-AR-12-004       09/14/2012    Revenue Sharing Agreements

                                 R-5 — 	 Establish and maintain a central repository for all revenue sharing agreement documentation. TID: May 2013

                                 R-6 — 	 Develop detailed policies and procedures for creating, designing, and monitoring revenue sharing agreements and disseminate the
                                         new procedures to the entire organization. TID: May 2013
DA-AR-12-002       09/18/2012    Lease Purchase Options for Postal Service Facilities

                                 R-2 — 	 Establish procedures for assigning lease purchase options to third parties in the real estate market. TID: November 2013
HR-AR-12-006       09/21/2012    Motor Vehicle Accident Prevention Program

                                 R-2 — 	 Provide periodic refresher training to supervisors on the Safe Driver Program and ensure employees performing driving
                                         observations take the Driver Observation training course. TID: June 2013

                                 R-3 — 	 Establish and implement proactive monitoring processes that include using Department of Motor Vehicle’s databases to validate
                                         driver’s licenses for employees in driving positions. TID: None
NL-AR-12-008       09/21/2012    St. Louis Network Distribution Center — Postal Vehicle Service Operations

                                 R-1 — 	 Periodically assess postal vehicle service spotter truck driver workload and staffing requirements with respect to productivity
                                         standards to maintain appropriate staffing levels. TID: July 2012

                                 R-3 — 	 Ensure that St. Louis Network Distribution Center management re-emphasis the safety policy that drivers must wear safety belts
                                         whenever the vehicle is in motion and provide management oversight for enforcement. TID: September 2012
CA-AR-12-006       09/28/2012    Oversight of Equitable Adjustments

                                 R-1 — 	 Require contracting officers to include a general release of claims in all supplemental agreements that constitute a release by
                                         the supplier for additional costs beyond that which is provided for in the contract modification or a more specific release in complex
                                         or contentious equitable adjustments. TID: November 2012

                                 R-3 — 	 Reiterate the contract file tracking process to ensure contract files are not lost when they are transferred from one office to another.
                                         TID: December 2013
CI-AR-12-007       09/28/2012    Post-Implementation Review Process

                                 R-1 — 	 Improve the Post-Implementation Review (PIR) process in Handbook PO-408, Area Mail Processing Guidelines, to identify and
                                         separate savings and costs associated with concurrent initiatives from savings and costs directly related to the area mail processing
                                         consolidation, implement the use of automated data calculation and pre-population for PIR worksheets and checklists, establish
                                         a process to allocate savings and costs when multiple consolidations are made into the same gaining facility, and assess whether
                                         current PIR timelines should be adjusted. TID: March 2014
DA-AR-12-004       09/28/2012    Accuracy of the Electronic Facilities Management System

                                 R-1 — 	 Modify the Electronic Facilities Management System to address inconsistency in data entry, including the use of drop-down lists and
                                         requiring completion of all data fields. TID: December 2012

                                 R-2 — 	 Develop a plan to require annual review and validation of all Electronic Facilities Management system data by Facilities Service
                                         Office personnel. TID: August 2013

                                 R-3 — 	 Develop and administer training for the use of Electronic Facilities Management System. TID: None



 Semiannual Report to Congress                                                     24                                                            April 1 — September 30, 2013
                                                                        Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
DA-MA-12-006       09/28/2012   Partnerships with Other Government Agencies

                                R-1 — 	 Clearly define organizational roles and responsibilities for developing and managing partnerships with other federal agencies
                                        and establish a written policy to identify, develop, track, and follow-up on potential partnership opportunities. TID: February 2013
DR-MA-12-003       09/28/2012   City Delivery Operations - Lancaster Carrier Annex

                                R-1 — 	 Reduce 12,339 office and street workhours in fiscal years 2013 and 2014 to achieve an annualized economic impact of $515,838,
                                        or $1,031,676 over 2 years. TID: September 2014
NL-AR-12-010       09/28/2012   First-Class Mail on Air Transportation — Assignment by Weight

                                R-1 — 	 Modify the assignment process to assign First-Class Mail to air transportation considering weight where feasible, with the heavier
                                        mail being assigned to FedEx and the lighter mail being assigned to United Parcel Service and commercial passenger air carriers –
                                        with consideration of contractor service performance and future air transportation contract requirements. TID: December 2014
NL-AR-12-011       09/28/2012   Mail Transport Equipment – Shortages of Pallets, Tubs, and Trays – Fall 2011 Mailing Season

                                R-1 — 	 Finalize procedures, processes, and guidelines to ensure there is effective planning and budgeting for Mail Transport Equipment
                                        (MTE) needs for the fall mailing season, taking into consideration operational and customer needs, financial condition, MTE
                                        leakage, and MTE condemnation. TID: July 2013

                                R-2 — 	 Finalize implementation of prior U.S. Postal Service Office of Inspector General recommendations from the Management of Mail
                                        Transport Equipment (MTE) – National Analysis audit (Report Number NL-AR-10-009, dated September 29, 2010) covering an
                                        automated inventory and tracking system, ensuring adequate resources for areas and plants, and update policies and procedures
                                        that support current MTE operational requirements. TID: October 2013

                                R-3 — 	 Finalize processes and procedures (considering costs and benefits) to limit or better control distribution and have visibility of
                                        Mail Transport Equipment distributed to mailers and other customers. TID: January 2014

                                R-4 — 	 Evaluate the best practices identified in this report and identify any applicable industry best practices for implementation
                                        (considering costs and benefits), such as the viability of implementing Radio Frequency Identification technology to control the
                                        leakage of plastic pallets and reduce annual purchase of replacement plastic pallets. TID: March 2013
DA-MA-13-001       10/02/2012   Biohazard Detection System Progress

                                R-1 — 	 Complete a comprehensive update to the 2002 threat assessment to determine risks to the mail stream prior to procuring new
                                        biohazard detection equipment. TID: September 2013

                                R-2 — 	 Develop a policy requiring periodic update of threat assessments. TID: July 2013
IT-AR-13-001       10/05/2012   Information Technology – Contractor Timecard Approvals in the Program Cost Tracking System

                                R-2 — 	 Make improvements to the Program Cost Tracking System procedures to ensure program managers validate their assigned project
                                        timecards initially approved by Information Technology Business Management. TID: September 2013
CA-AR-13-001       10/09/2012   Best Value in the Purchasing Process

                                R-2 — 	 Update the contract file transfer process to include a step to require the receiving contract officials to certify that contract files
                                        contain required documentation. TID: December 2013
DR-AR-13-001       10/11/2012   Delivery Operations Data Usage

                                R-1 — 	 Streamline systems, reports (including exception based reporting) and data (including real-time data) to meet city delivery needs.
                                        TID: June 2012

                                R-2 — 	 Re-emphasize city delivery operating procedures to new supervisors and managers. TID: October 2012
FT-AR-13-001       10/19/2012   Officer Compensation for Calendar Year 2011

                                R-1 — 	 Coordinate with the Board to ensure the Postal Service reports to the Office of Personnel Management and Congress a complete
                                        list of critical senior executive or equivalent positions allowed to receive total compensation in an amount not to exceed 120 percent
                                        of the total annual compensation payable to the vice president of the U.S. TID: September 2013

                                R-2 — 	 Request an interpretation from the Government Accountability Office on whether annuity payments are considered in an employee’s
                                        total compensation and subject to the Postal Act of 2006 compensation caps. TID: September 2013
MS-AR-13-001       12/06/2012   Delivery Unit Optimization Initiative

                                R-1 — 	 Revise delivery unit optimization guidelines to include a well-defined, consistent methodology for projecting cost savings and
                                        operational efficiencies. TID: March 2013

                                R-2 — 	 Develop a process to ensure the revised guidelines are applied consistently and post consolidation reviews are performed to
                                        accurately validate savings and efficiencies. TID: March 2013
SM-MA-13-001       12/17/2012   Accenture Federal Services Contracts

                                R-3 — 	 Revise the policy and clauses for time and material contract types to include a definition of material handling costs and exclude
                                        payment of profit or handling fees on materials. TID: March 2013



Semiannual Report to Congress                                                   25                                                            April 1 — September 30, 2013
                                                                      Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
HR-AR-13-001       12/24/2012   Workers’ Compensation Data Systems

                                R-1 — 	 Provide additional training for personnel responsible for entering and monitoring data in the Employee Health and Safety system.
                                        TID: None

                                R-2 — 	 Issue supplemental guidance and enhance internal controls to ensure that responsible officials consistently adhere to workers’
                                        compensation claims management procedures. TID: None

                                R-3 — 	 Assess options to enhance and integrate the reporting capabilities of the Injury Compensation Performance Analysis System to
                                        provide management with data necessary for effective analysis and decision making. TID: None
DP-AR-13-001       01/03/2013   Caller and Reserve Service Operations

                                R-1 — 	 Implement, if feasible, an automated process to identify all inactive or unassigned caller and reserve service addresses by linking
                                        mailing data systems to the Web Box Activity Tracking System. TID: August 2013

                                R-3 — 	 Update caller and reserve service policies and procedures so they are consistent, clear, accurate, and easily located and accessible
                                        in one place. TID: January 2014
IT-AR-13-003       01/28/2013   Fiscal Year 2012 Information Technology Internal Controls

                                R-3 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance Management
                                        Office and the Postal Service Office of Inspector General during the audit relating to use of scans, scripts, and monitoring efforts to
                                        confirm the installation and reporting of intrusion detection and prevention software or services on all in-scope Windows and UNIX
                                        servers. TID: December 2013

                                R-4 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance Management Office
                                        and the Postal Service Office of Inspector General during the audit relating to segregation of duties in the regular reviews of actions
                                        taken to assess Guardium log records. TID: December 2013

                                R-6 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance Management Office
                                        and the Postal Service Office of Inspector General during the audit relating to compliance with expected Windows operating system
                                        configurations on in-scope servers. TID: December 2013

                                R-8 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance Management Office
                                        and the Postal Service Office of Inspector General during the audit relating to redesign of the control over UNIX configurations to
                                        remove duplication and better reflect expectations for controls over financial reporting. TID: December 2013

                                R-9 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance Management Office
                                        and the Postal Service Office of Inspector General during the audit relating to alignment of the procedures and processes used to
                                        test and approve UNIX patches before implementation in the production environment. TID: December 2013
SM-MA-13-004       02/12/2013   Hybrid Mail Efforts

                                R-1 — 	 Develop a business strategy to increase hybrid mail revenue for small- and medium-sized businesses if profitable and feasible
                                        (including transactional mail) and overcome privacy concerns. TID: None
IT-AR-13-004       03/04/2013   Web Server Security Assessment

                                R-4 — 	 Review web server configurations in accordance with policy to ensure servers remain configured according to security standards.
                                        TID: September 2013
SM-MA-13-002       03/15/2013   Trends and Systemic Issues in Defense Contract Audit Agency Audit Work for Fiscal Years 2009-2012

                                R-1 — 	 Emphasize to contracting officials the importance of requesting Defense Contract Audit Agency audits to support decisions in
                                        awarding and managing contracts. TID: October 2013
MS-AR-13-005       03/18/2013   Residential Customer Service Experiences

                                R-1 — 	 Update the residential Customer Experience Measurement survey to allow customers to provide more definitive location identifiers
                                        (for example, Post Office™ name, city, and ZIP Code) that relate to their experiences. TID: March 2014

                                R-2 — 	 Develop a process to collect and analyze residential customer experience information from other access channels.
                                        TID: March 2014

                                R-3 — 	 Develop a strategy to design and implement corrective actions in a more timely and response manner when poor customer service
                                        experience scores are identified. TID: December 2013

                                R-4 — 	 Ensure that mechanisms are developed and implemented to track residential customer experiences as key operational initiatives
                                        are taken to improve the Postal Service’s financial condition. TID: December 2013




Semiannual Report to Congress                                                 26                                                          April 1 — September 30, 2013
                                                                      Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
DR-MA-13-001       03/21/2013   Lessons Learned From Retail Optimization Initiatives

                                R-1 — 	 Process and approve or disapprove the remaining 600 Retail Access Optimization Initiative discontinuance proposals.
                                        TID: September 2014

                                R-2 — 	 Enhance communication plans with stakeholders by providing consistent, accurate, and timely information that supports
                                        retail optimization initiatives. TID: None

                                R-3 — 	 Develop and implement a formal post-implementation review that evaluates savings achieved and potential revenue loss
                                        associated with retail network realignments. TID: November 2014
NO-AR-13-001       03/21/2013   Washington Network Distribution Center – Postal Vehicle Service Operations

                                R-1 — 	 Follow prescribed Postal Service standard operating procedures to the extent possible for live loading mail into trailers for
                                        immediate movement from the facility yard and consider the reduction of moves in future workload and staffing analyses.
                                        TID: March 2013

                                R-2 — 	 Periodically assess Postal Vehicle Service truck driver workload and staffing requirements with respect to productivity standards
                                        to maintain appropriate staffing levels. TID: April 2013

                                R-3 — 	 Eliminate 3,492 annual workhours associated with improving Postal Vehicle Service truck driver productivity to the Breakthrough
                                        Productivity Initiative standard of 40 moves per day, or 200 moves per week. TID: February 2013

                                R-4 — 	 Ensure managers within the Capital Metro Area follow prescribed highway contract procedures for making highway contracts
                                        efficient, including the continual monitoring and adjustment of trips based on need. TID: May 2013

                                R-5 — 	 Verify the elimination or modification of 24 trips from highway contracts initiated by management during our audit for a savings of
                                        about $800,000 annually. TID: March 2013

                                R-6 — 	 Eliminate or modify 36 trips from highway contracts identified during our audit for a savings of about $1.3 million annually.
                                        TID: January 2013

                                R-7 — 	 Continually re-emphasizes the safety policy that drivers must wear safety belts whenever their vehicles are in motion, and provide
                                        management oversight for enforcement. TID: January 2013

                                R-8 — 	 Ensure Postal Service management repairs exterior doors that have broken locks and security badge readers that do not operate
                                        and hold safety talks with all employees to highlight that security policy states exterior doors are not to be propped open with any
                                        devises to bypass security. TID: December 2012
NO-MA-13-004       03/27/2013   Lessons Learned from Mail Processing Network Rationalization Initiatives

                                R-1 — 	 Improve the communication process by ensuring accurate and consistent information is shared with stakeholders on consolidation
                                        impacts. TID: April 2013
NO-AR-13-002       03/29/2013   Postal Service Performance During the Fiscal Year 2013 Fall Mailing Season

                                R-1 — 	 Coordinate with area vice presidents to ensure that all field personnel properly color code Standard Mail in accordance with Postal
                                        Service policy and store mail transportation equipment to facilitate mail flow. TID: August 2013
NO-MA-13-005       04/04/2013   Supervisor Workhours and Span of Control

                                R-2 — 	 Fill vacant supervisor positions up to the appropriate span of control level and reduce supervisor replacement workhours
                                        accordingly. TID: October 2013
DP-AR-13-004       04/23/2013   U.S. Postal Service Data Governance

                                R-1 — 	 Direct the vice president, Information Technology, to implement a formal, enterprise-wide data governance program.
                                        TID: December 2013
MS-AR-13-007       04/29/2013   Domestic Negotiated Service Agreements

                                R-1 — 	 Develop and implement standardized procedures for managing negotiated service agreements. The procedures should include
                                        requirements for validating data used by individuals for various internal and external reporting purposes. TID: October 2013

                                R-2 — 	 Create a data retention policy and central repository for data archival. Specifically, the data should be retained throughout the life
                                        of the NSA and for a specified period after the agreement expires or is terminated. Historical data should include the methodology
                                        the Postal Service uses to project a customer’s mail volume to determine discounts, a comparison of the mailer’s pre-agreement
                                        volumes with its annual volumes under the NSA, and analyses of data from other mailers with similar NSAs. TID: October 2013
DR-MA-13-002       05/06/2013   U.S. Postal Service Parcel Delivery Lockers

                                R-1 — 	 Adjust access and implementation factors in the pilot to maximize customer utilization. TID: September 2013

                                R-2 — 	 Add revenue and cost reduction features to the pilot to maximize return-on-investment opportunities. TID: September 2013

                                R-3 — 	 Implement parcel locker best practices and strategies from international entities in the pilot where applicable. TID: September 2013




Semiannual Report to Congress                                                 27                                                          April 1 — September 30, 2013
                                                                       Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
DP-AR-13-006       05/23/2013   Management of Detail Assignments

                                R-1 — 	 Designate overall responsibility for managing detail assignments and associated travel costs to an appropriate functional area
                                        to ensure detailed assignment compliance, effectiveness, and efficiency. TID: August 2014
DR-AR-13-004       05/24/2013   City Delivery Street Efficiency Southern, Pacific, and Western Areas

                                R-1 — 	 Reduce 340,499 workhours in the five districts cited. TID: None
SM-AR-13-002       06/17/2013   Oversight of Performance-Based Contracts

                                R-2 — 	 Ensure that clear policy guidance is provided for contracting officers when considering the use of performance-based contracting.
                                        TID: January 2014

                                R-3 — 	 Provide training to contracting officers on the use of performance-based contracting methods. TID: January 2014
DP-AR-13-008       06/19/2013   Delivering Results, Innovation, Value, and Efficiency Management

                                R-1 — 	 Evaluate implementing regular audits and controls for each project at the program management level. TID: September 2013

                                R-2 — 	 Develop and implement a Postal Service-wide program management policy that identifies the best practices currently employed
                                        by the Postal Service, as well as differentiates between mandated and optional practices. This process should also take into
                                        consideration best practices, including those provided by the Postal Service Office of Inspector General. TID: March 2014
MS-AR-13-009       06/20/2013   Small Business Growth

                                R-3 — 	 Establish a process for improving the availability and use of sales-related tools, market data, and training. The process should
                                        include providing postmasters additional training on selling Postal Service products and services, updating data in the Business
                                        Opportunity Tool Kit, and providing postmasters with product sales scripts and market data. TID: June 2014
HR-AR-13-002       07/05/2013   Overtime Use During Fiscal Years 2011 and 2012

                                R-1 — 	 Require responsible management officials to conduct complement analyses and establish staffing plans for the Houston, Chicago,
                                        South Florida, and Hawkeye Districts to better align the workforce to the workload. TID: February 2014

                                R-2 — 	 Require responsible officials at identified mail processing facilities and delivery units to implement a plan to ensure mail arrival
                                        times and carrier schedules are aligned to minimize stand-by time and associated overtime. TID: February 2014

                                R-3 — 	 Implement controls to ensure supervisors at the Fort Dearborn, Roberto Clemente, and Cragin Stations take advantage of pivot
                                        opportunities and conduct street supervision of carriers. TID: September 2013

                                R-4 — 	 Pursue changes to local agreements in the Houston District associated with strict rotation and the requirement for the
                                        Postal Service to pay letter carriers an additional $10 per hour for any hour they work after 5:15 p.m. TID: February 2014
HR-MA-13-003       07/12/2013   Postal Career Executive Service I Annual Leave

                                R-1 — 	 Clarify the annual leave policy (with examples) to include how various ways of using annual leave satisfy the requirement to use 80
                                        hours annually and communicate to applicable personnel. TID: January 2014

                                R-2 — 	 Modify and test leave system controls to ensure U.S. Postal Inspection Service Postal Career Executive Service I equivalent
                                        employees’ annual leave amounts are calculated according to Postal Service policy, and communicate policy to applicable
                                        personnel. TID: January 2014
HR-AR-13-004       07/25/2013   Postal Service Injury Compensation Program

                                R-1 — 	 Conduct a formal staffing analysis to determine the number and type of employees needed to handle workers’ compensation
                                        claims, including Health and Resource Management specialists, internal or contract nurses, specially trained or contract third-party
                                        recovery specialists, or other support personnel and adjust staffing accordingly. TID: October 2013

                                R-2 — 	 Establish performance measures or other incentives for district managers based on chargeback reductions. TID: October 2013

                                R-3 — 	 Complete implementation of Rehabilitation Program Committees nationwide to include developing standard guidelines to facilitate
                                        returning injured employees to work. TID: October 2013

                                R-4 — 	 Complete the nationwide implementation of WebESP to provide a more efficient and effective process for identifying and assigning
                                        available work for injured employees. TID: March 2014

                                R-5 — 	 Develop a simplified and standardized quick reference guide of key process steps to help district Health Resource Management
                                        staff effectively perform their duties. TID: October 2013

                                R-8 — 	 Evaluate how predictive analytics can be used to support claims management activities and reduce costs. TID: None
IT-AR-13-006       07/31/2013   Management and Utilization of Software Licenses

                                R-2 — 	 Establish an enterprise-wide inventory listing of all software installed on the Postal Service’s network. TID: January 2014

                                R-4 — 	 Require management to establish and maintain an enterprise-wide software inventory list and periodically scan workstations
                                        to identify unauthorized software products running on the Postal Service network. TID: January 2014




Semiannual Report to Congress                                                 28                                                           April 1 — September 30, 2013
                                                                      Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
DR-MA-13-003       08/06/2013   Delivery Data Transmission

                                R-1 — 	 Issue guidance on conducting a refresher stand-up talk to carriers showing how to connect cell phones and Intelligent Mail Data
                                        Devices and noting the importance of the connection. TID: July 2012

                                R-2 — 	 Ensure that an onscreen connectivity indicator is installed on either carrier cell phones or Intelligent Mail Data Device scanners.
                                        TID: June 2013

                                R-3 — 	 Modify the Intelligent Mail Device Acquisition System report for delivery unit management to provide unit and route specific
                                        information on cell phone and Intelligent Mail Data Device scanner connectivity. TID: October 2013
NO-MA-13-006       08/07/2013   Modified Altoona, PA Originating and Destinating Area Mail Processing Package

                                R-1 — 	 Make necessary corrections in the revised Area Mail Processing package by adjusting workhours and employee complement
                                        accordingly and then determine whether they should pursue the additional consolidation to include some of the Altoona’s
                                        designating operations. TID: July 2013
MS-MA-13-004       08/14/2013   Benchmarking of Postal Service’s Costing Methodologies

                                R-1 — 	 Develop a formal process, in coordination with the chief information officer and chief operating officer, to strengthen the
                                        communication process between Finance, Operations, and users of the product costing system data regarding data needs and
                                        production. TID: July 2016

                                R-2 — 	 Establish a long-term implementation plan, in coordination with the chief information officer and chief operating officer, to expand
                                        usage of system-generated data that includes a data transition roadmap. TID: July 2016

                                R-3 — 	 Expand usage of currently available system-generated data from operations or data that can be available in the near term to enable
                                        the product costing system to rely more on operations data and less on special studies. TID: July 2016

                                R-4 — 	 Evaluate the feasibility of performing cost and revenue analysis at the ZIP Code level or relevant regional areas to support
                                        development of customer-specific rates for those products for which such price distinctions are considered legal. TID: None
NO-AR-13-004       08/16/2013   New Castle and Greensburg, PA Consolidation

                                R-1 — 	 Coordinate with the Facility Service Office when rental space is vacated to ensure management takes appropriate lease termination
                                        actions. TID: July 2013
NO-AR-13-005       08/16/2013   Efficiency Review of the Atlanta Network Distribution Center — Processing and Transportation

                                R-1 — 	 Improve the efficiency of the Atlanta Network Distribution Center’s mail processing operations by attaining the above-average
                                        median productivity level of 119 pieces per workhour by Fiscal Year 2016. TID: September 2013

                                R-2 — 	 Realign, remove, and modify Highway Contract Route transportation associated with the Atlanta and Memphis Network Distribution
                                        Centers. TID: October 2013

                                R-3 — 	 Reinforce field compliance with Network Distribution Center guidelines for properly sorting, labeling, and consolidating mail prior
                                        to transport. TID: September 2013

                                R-4 — 	 Reinforce existing safety procedures requiring restraint of Mail Transport Equipment rolling stock containers in trailers.
                                        TID: August 2013
HR-AR-13-005       08/20/2013   Employee and Labor Relations Manual Revisions

                                R-1 — 	 Implement procedures to update the Employee and Labor Relations Manual on a regular basis to ensure that it is current, accurate,
                                        and complete. TID: December 2013

                                R-2 — 	 Clearly identify functional organizations responsible for Employee and Labor Relations Manual section and chapter contents and
                                        communicate that information to appropriate stakeholders. TID: December 2013
NO-AR-13-006       08/26/2013   Springfield Network Distribution Center — Postal Vehicle Service Operations

                                R-3 — 	 Eliminate an additional 8,623 annual workhours associated with improving Postal Vehicle Service driver productivity to the standard
                                        of five moves per hour. TID: September 2013
SM-MA-13-006       09/18/2013   Postal Service Purchasing Policies’ Impact on Defective Pricing Fraud Cases

                                R-1 — 	 Require suppliers to certify that cost or pricing data is accurate, complete, and current. TID: March 2014
HR-AR-13-007       09/24/2013   W.F. Bolger Center for Leadership Development

                                R-1 — 	 Establish an accounting methodology to allocate all W.F. Bolger Center for Leadership Development operating costs between
                                        internal and external customers. TID: December 2013

                                R-2 — 	 Conduct at least one formal audit of the contractor’s financial records annually. TID: None




Semiannual Report to Congress                                                 29                                                          April 1 — September 30, 2013
                                                                        Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
IT-AR-13-007       09/24/2013   Engineering Systems and Network Operations Disaster Recovery Plan — Merrifield, VA Campus

                                R-1 — 	 Establish, implement, and test a disaster recovery plan for Engineering Systems and Network Operations in Merrifield, VA that is
                                        commensurate with the sensitivity of data, available resources, and level of risk for the applications and incorporates an appropriate
                                        alternative site located far enough away from the Merrifield campus that it will not be affected by the same disaster. TID: May 2014

                                R-2 — 	 Timely complete or update, as appropriate, business impact or infrastructure impact assessments for all applications supported by
                                        Engineering Systems. TID: December 2013
IT-AR-13-008       09/25/2013   Availability of Critical Applications

                                R-2 — 	 Provide the guidance developed by the Retail Business Technology group for Point of-Service (POS)–Retail users on how to
                                        respond to an outage or a POS–Retail terminal in degraded mode. TID: November 2013
NO-AR-13-007       09/25/2013   Surface Visibility — Transportation Operations — Oklahoma District

                                R-1 — 	 Ensure the containers coming from the mail processing operations have the proper barcoded placards so they can be scanned.
                                        TID: October 2013

                                R-2 — 	 Eliminate the prescan barcode workarounds and any unnecessary manual inputs and follow prescribed scan procedures.
                                        TID: October 2013

                                R-3 — 	 Put controls in place to prevent recurrence of improper scanning. TID: October 2013

                                R-4 — 	 Retrain employees on the proper Surface Visibility policies and procedures regarding scanning. TID: November 2013

                                R-5 — 	 Verify and document the elimination or modification of 38 trips from highway contract routes in the Oklahoma District and eliminate
                                        3,636 workhours from Postal Vehicle Service trip schedules assigned to the Tulsa Processing and Distribution Center, or document
                                        the reasons for retaining the workhours. TID: November 2013
SM-AR-13-004       09/25/2013   Noncompetitive Purchasing Practices

                                R-1 — 	 Direct contracting officials to include and verify that sufficient information is in the contract file to support price and cost analysis.
                                        TID: December 2013

                                R-2 — 	 Reiterate policy that field personnel not approve suppliers to start work without authorization from the contracting officer.
                                        TID: December 2013

                                R-3 — 	 Ensure contracting officials collaborate with the competition advocate and internal business partners requesting purchases to
                                        promote increased competition when awarding contracts. TID: December 2013
HR-MA-13-004       09/26/2013   Revenue Generation Patents

                                R-1 — 	 Work closely with subject matter experts to review patents with revenue generation potential and draft claims as appropriate.
                                        TID: None
IT-AR-13-009       09/26/2013   LiteBlue Security Assessment

                                R-1 — 	 Enhance access controls to all Postal Service employee self-service applications. TID: February 2014

                                R-3 — 	 De-identify personally identifiable information on forms loaded into the employee self-service module of the electronic Official
                                        Personnel Folder application. TID: None

                                R-4 — 	 Re-enable system banners after patching is complete. TID: None

                                R-5 — 	 Implement database auditing and logging on all databases that contain personally identifiable information. TID: None

                                R-8 — 	 Develop a method by which database administrators can obtain information on specific requirements and authorizations for each
                                        application to track authorized account settings and parameters. TID: None
NO-MA-13-007       09/26/2013   Assessment of Overall Plant Efficiency 2013

                                R-1 — 	 Reduce 14,364,398 workhours by fiscal year 2018, with an associated economic impact of $628,670,104. TID: September 2018
FT-MA-13-022       09/27/2013   Using U.S. Postal Service-Specific Assumptions for Calculating the Retiree Health Care Liability

                                R-1 — 	 Coordinate with the Office of Personnel Management to modify the future retiree health care liability calculation to use actuarial
                                        assumptions specific to the Postal Service. TID: None
FT-MA-13-023       09/27/2013   Using U.S. Postal Service-Specific Assumptions for Calculating the Civil Service Retirement System Liability

                                R-1 — 	 Coordinate with the Office of Personnel Management to modify the future Civil Service Retirement System liability calculation to
                                        use actuarial assumptions specific to the Postal Service. TID: None
FT-MA-13-024       09/27/2013   Using U.S. Postal Service-Specific Assumptions for Calculating the Federal Employees Retirement System Liability

                                R-1 — 	 Coordinate with the Office of Personnel Management to modify the future Federal Employees Retirement System liability
                                        calculation to use actuarial assumptions specific to the Postal Service and, based on the results, take action as appropriate.
                                        TID: None



Semiannual Report to Congress                                                   30                                                            April 1 — September 30, 2013
                                                                      Appendix E
                                Report Title, Recommendation Summary
                                	            R = Recommendation number
Report Number      Issue Date   	            TID = Target Implementation Date
HR-AR-13-008       09/27/2013   Grievance Settlements and Payments Follow Up

                                R-1 — 	 Issue a reminder, re-emphasizing to managers the importance of adhering to existing internal control guidelines, specifically as
                                        they relate to using Grievance Arbitration Tracking System alerts to monitor grievance activity and document handling to ensure
                                        completeness of grievance case files. TID: December 2013
MS-AR-13-012       09/27/2013   Electronic Parcel Payment Systems Internal Control Requirements

                                R-2 — 	 Develop interim controls, such as establishing roles and responsibilities in the identification of shortpaid mailpieces, providing
                                        enhanced scanners to clerks and carriers, judgmentally sampling PC Postage parcels at sorting facilities and delivery units, and
                                        increasing the accuracy of scales on mail processing equipment, to improve detection of shortpaid parcels until automated controls
                                        are in place. TID: June 2014

                                R-4 — 	 Implement software changes to the Electronic Verification System in order to correctly validate destination entry rates claimed by
                                        mailers. TID: January 2015
NO-AR-13-008       09/27/2013   Nationwide Analysis of Tier 1 Network Distribution Centers – Postal Vehicle Service Operations

                                R-1 — 	 Require the six Tier 1 Network Distribution Centers identified in the report conduct an assessment of driver workload and staffing
                                        and make appropriate adjustments to workhours based on compliance with yard move productivity standards. TID: January 2015

                                R-2 — 	 Ensure Tier 1 Network Distribution Centers annually assess Postal Vehicle Service driver workload and staffing requirements.
                                        TID: January 2015
DR-AR-13-007       09/30/2013   Vehicle Maintenance Facility Efficiency Capital Metro and Pacific Areas

                                R-1 — 	 Fill vacant mechanic and support staff positions to improve inefficiencies in operations. TID: None

                                R-2 — 	 Assess the reporting structure for vehicle operations maintenance assistants (VOMAs) and require vehicle maintenance managers,
                                        or designees, to provide adequate oversight of VOMAs to ensure they perform their vehicle maintenance-related duties. TID: None
HR-AR-13-009       09/30/2013   Emergency Preparedness for Hurricane Sandy

                                R-1 — 	 Provide periodic training to responsible personnel to ensure they are aware of procedures for safeguarding employees during an
                                        emergency. TID: None

                                R-2 — 	 Clarify policies and procedures regarding employees reporting to postal facilities where mandatory evacuation orders have been
                                        issued. TID: March 2014

                                R-3 — 	 Issue supplemental guidance for holding mail and moving mail and other assets from facilities located in mandatory evacuation
                                        areas. TID: March 2014

                                R-4 — 	 Establish controls to ensure integrated emergency management plans are reviewed, approved, and updated at least annually.
                                        TID: December 2013

                                R-5 — 	 Clarify which facilities are required to maintain complete, approved integrated emergency management plans and communicate
                                        that to appropriate personnel. TID: December 2013
NO-AR-13-009       09/30/2013   Timeliness of Mail Processing at the Hartford, CT Processing and Distribution Center

                                R-1 — 	 Adjust planning and scheduling to accommodate mail volumes especially during holiday periods. TID: None
SM-AR-13-005       09/30/2013   Vacant Land Parcels

                                R-1 — 	 Declare the land parcel located in Norman, OK as excess. TID: June 2014

                                R-3 — 	 List the Elk River, MN; Norman, OK; and Islip, NY parcels for sale. TID: June 2014

                                R-4 — 	 Evaluate the eight parcels in Kahului, HI; Cooper City, FL; Stuart, FL; Kihei, HI; Pahoa, HI; Incline Village, NV; Mendocino, CA; and
                                        Pinetop, AZ and develop a strategy to sell the properties when market conditions improve. TID: None

                                R-5 — 	 Evaluate the 10 additional parcels in Apache Junction, AZ; Central, AZ; Tehachapi, CA; Marengo, IN; Kokomo, IN; Hilton Head, SC;
                                        Garland, TX; Loiza, PR; Viequez, PR; and San Juan, PR to determine whether they are suitable for sale. TID: None




Semiannual Report to Congress                                                31                                                          April 1 — September 30, 2013
                                                                              Appendix F
APPENDIX F
Significant Management Decisions in Audit Resolution
For the period April 1 — September 30, 2013

As required by the IG Act, the following discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.

                                        Report Title, Recommendation Summary
                                        	            R = Recommendation number
 Report Number          Issue Date      	            TID = Target Implementation Date
 SM-MA-13-006           09/18/2013      Postal Service Purchasing Policies’ Impact on Defective Pricing Fraud Cases

                                        R-1 — Require suppliers to certify that cost or pricing data is accurate, complete, and current. TID: None




APPENDIX G
Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and 2) any
outstanding recommendations from any previous or current peer reviews that remain outstanding or have not been fully implemented.

Office of Audit
Internal Peer Reviews

None conducted during this period.

External Peer Reviews

None conducted during this period.

Office of Investigations
Internal Peer Reviews

None conducted during this period.

External Peer Reviews

None conducted during this period.




 Semiannual Report to Congress                                                       32                                                          April 1 — September 30, 2013
                                                                                                                  Appendix H
APPENDIX H
Investigative Statistics*
For the period April 1 — September 30, 2013

                                                                                                                    Admin                                 Fines /
                              Investigations                          Indictments /                                 Action                Cost       Restitution,      Amount to      To Mgmt. for
                                     Closed            Arrests          Information            Convictions**        Taken            Avoidance    and Recoveries        USPS***      Admin Action
Contract Fraud                               110                5                      6                    10            66         17,025,985          68,153,767    67,973,902              25
Financial Fraud                              264              64                      41                    64           173          2,191,900           1,229,121     1,166,463             153
General Crimes                               446              43                      25                    41          328            —                   355,490       192,560              237
Healthcare Fraud                             485              27                      28                    21          109         127,818,526          5,503,623      4,551,777              92
Internal Mail Theft                          838            193                     137                    182          499            —                 4,429,449        131,292             374
Total                                      2,143            332                     237                    318        1,175         147,036,411         79,671,450     74,015,994             881
* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




For the period October 2012 — September 30, 2013

                                                                                                                    Admin                                 Fines /
                              Investigations                          Indictments /                                 Action                Cost       Restitution,      Amount to     To Mgmt. for
                                     Closed           Arrests           Information            Convictions**        Taken            Avoidance    and Recoveries        USPS***     Admin Action
Contract Fraud                               205              10                     11                     23           123        136,710,309      200,467,901       94,636,338             55
Financial Fraud                              470            118                      84                    130          303           8,269,220          2,990,196      2,868,277            311
General Crimes                               728              68                     35                     67          562             62,500             563,217        353,774            482
Healthcare Fraud                             877              57                     46                     43          188         227,272,433    1,884,606,581       48,235,986            200
Internal Mail Theft                        1,514            339                    239                     352          854            —                 7,980,098       350,263             720
Total                                     3,794             592                     415                    615        2,030         372,314,462    2,096,607,993      146,444,638          1,768

* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




Whistleblower Reprisal Activity
The Whistleblower Protection Act does not apply to the Postal Service. However, the Postal Service has its own policy governing whistleblower retaliation.
The policy prohibits retaliation against employees who have disclosed information they reasonably believe to be: 1) a violation of any rule, law or regulation, or 2)
a gross waste of funds, gross mismanagement, abuse of authority, or a substantial and specific danger to public health or safety.


For the period April 1 — September 30, 2013                                                    For the period October 2012 — September 30, 2013

 Whistleblower Reprisal Activity                                                                Whistleblower Reprisal Activity
 Allegations Received                                           88                              Allegations Received                               172
 OIG Investigations Initiated                                    5                              OIG Investigations Initiated                       18
 Investigations Closed with No Action                           10                              Investigations Closed with No Action               21
 Allegations Closed with No Action                              88                              Allegations Closed with No Action                  181
 Open Investigations (As of Last Day)                           —                               Open Investigations (As of Last Day)               —
 OIG Found Reprisal                                             —                               OIG Found Reprisal                                 —




Semiannual Report to Congress                                                                                                  33                                                   April 1 — September 30, 2013
                                                                          Appendix I
Appendix I
Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007
For the period April 1 - September 30, 2013




                                                                                            Complaints      Consent
                                              Type of Scheme                                     Filed   Agreements     FROs      C&D Orders
Financial Reporting on                        Advanced Fee                                           1            1        —                1
Investigative Activities for the              Charity                                                1            1        —                1
Postal Inspection Service                     Counterfeit Financial Instruments                     10           10        —               10
                                              Coupon/Rebate Fraud                                    2            2        —                2
Type
                                              False Billings                                         5            5         6              11
Personnel                      172,951,164
                                              Fraudulent Postage                                     8            8        —                8
Nonpersonnel                   35,887,643
                                              Identity Theft                                         1            1        —                1
TOTAL                         208,838,806
                                              Medical Product Fraud                                 —            —         —                —
Total Capital Commitments         946,439
                                              Merchandise: Failure to Furnish                        5            5        —                5
                                              Merchandise: Failure to Pay                            2            4        —                3
                                              Misrepresentation                                      5            5         1               5
                                              Other                                                  6            6        —                6
                                              Reshipping Scheme                                     18           18         1              19
                                              Sweepstakes/Lottery                                   47           49        14              50
                                              Work at Home                                           6            6        —                6
                                              TOTAL                                                117          121        22             128


                                              Other Administrative Actions
                                              Administrative Action Requests                                                               117
                                              Temp. Restraining Orders Requested                                                            —
                                              Temp. Restraining Orders Issued                                                               —
                                              Cases Using Direct Purchase Authority                                                         —
                                              Civil Penalties (Section 3012) Imposed                                                        —
                                              Test Purchases                                                                                —
                                              Withholding Mail Orders issued
                                                                                                                                           26
                                              (includes 1 Petition)
                                              Voluntary Discontinuances                                                                     —


                                              Administrative Subpoenas Requested by the Postal Inspection Service
                                              There was one request during the reporting period.




Semiannual Report to Congress                                                     34                              April 1 — September 30, 2013
                                                                                    Appendix J
APPENDIX J
All Closed Congressional/ PMG/BOG Inquires
For the period April 1 — September 30, 2013

This appendix lists the congressional, postmaster general, and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed
or investigated these inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquires are listed in the chronological order of
receipt.


 Inspector General Investigations (58)
 Requestor               Allegation/ Concern                                                    Major Findings                                                           Closure Date
 Representative,         Status of complaint about theft of multiple stamp orders               We monitored deliveries and conducted surveillance and testing                09/16/13
 New York                from the Stamp Fulfillment Center in Kansas City                       in 2012. This culminated in the recovery of stolen stamps, other
                                                                                                illegal items, including a firearm. We recognized a loss to the
                                                                                                Postal Service of more than $5,700. In 2012, the US Attorney for the
                                                                                                Southern District of New York accepted the case for prosecution.
 Representative,         Hostile work environment and postal management misconduct,             We confirmed North Florida District Human Resources management                06/07/13 
 Georgia                 e.g., harassment, discrimination, and intimidation                     already conducted a climate assessment and recommended
                                                                                                training, coaching, and review of postal operations. Employees
                                                                                                indicated management had made positive changes.
 Representative,         Theft and irregular delivery of mail                                   We found a transitional employee delayed mail on several routes.              04/15/13 
 Maryland                                                                                       Management removed the employee. In 2013, the former employee
                                                                                                was found guilty under Maryland criminal law and was sentenced.
 Representative,         Theft of mail containing a $25,000 check in 2004                       We confirmed complaint was one of 20 checks sent by First Class               05/20/13 
 Virginia                                                                                       Mail from Pennsylvania to trust beneficiaries. We attempted to use the
                                                                                                cancelled check to determine who negotiated it and subpoenaed bank
                                                                                                records for that purpose. Due to passage of time and bank mergers,
                                                                                                we could not determine if any postal employees were responsible.
 Representative, Texas   Non-delivery of 22,000 Voter Registration Cards (VRCs)                 We confirmed that in part of Bend County, VRCs likely were not                04/15/13
                                                                                                delivered; however, we could not determine how many were not
                                                                                                delivered or their whereabouts. Our investigation revealed no evidence
                                                                                                of voter fraud, mail theft, or non-delivery by postal employees.
 Senator, Illinois       Theft of jewelry valued at $1,000, sent by mail in 2009                We conducted an investigation and found a postal carrier signed               06/13/13 
                                                                                                complainants’ names on the Delivery Attempt Notice in an
                                                                                                apparent attempt to provide convenient delivery. He initially paid
                                                                                                the customer $500 on the claimed $1,000 loss. When the customer
                                                                                                complained that the carrier had not covered the remainder of
                                                                                                her loss, postal management explained postal policy provided
                                                                                                relief only through the formal claims process. We documented
                                                                                                that management conducted a service talk reinforcing postal
                                                                                                policies. Management referred complainant to Postal Inspection
                                                                                                Service, but we could not document the actions taken.
 Senator, Kansas         Delay of mail; safety and National Agreement violations                Our investigation determined that the National Association                    04/05/13 
                                                                                                of Letter Carriers (NALC) filed several grievances regarding
                                                                                                clerks carrying mail. We learned that neither right-hand drive
                                                                                                nor 2-ton vehicle training was required for the clerks, who
                                                                                                were considered incidental drivers. In February, we confirmed
                                                                                                that all the carrier-related grievances have been settled.
 Senator, Kansas         Postal management misconduct including payroll                         Evidence the complainant supplied was incomplete; other evidence              04/26/13 
                         improprieties, improper clock rings, and conduct                       showed supervisors were correctly charged for their requested leave
                         of personal business while on duty                                     hours. We found the clock rings followed postal policy, although
                                                                                                the complainant disagreed with the policy. We found no evidence
                                                                                                of a supervisor conducting personal business while on duty.
 Representative, Texas   Anonymous employees of a delivery unit reported potential              We found no evidence to support allegations of misuse of controlled           04/26/13
                         misconduct with controlled items including keys, gas cards, and        items or falsification of delivery scans. We reviewed the steps
                         postage due monies; falsification of delivery scans, or delay          management took to address what it believes is an operational issue
                         and non-delivery of mail; and a hostile work environment               about delivery. Postal employees we interviewed never witnessed
                                                                                                nondelivery of advertisements or delay of Certified Mail. Management
                                                                                                took a number of steps to evaluate and address workplace complaints,
                                                                                                such as reviews of quarterly employee survey data (showing this
                                                                                                location did not rank low in satisfaction factors) and grievance rates
                                                                                                (the station had not had any filings referencing these issues).
 Ranking Member,         Non-delivery of mail containing a check worth $100,000                 We interviewed several postal management and craft personnel.                 04/26/13 
 Senate Committee                                                                               We found a substitute carrier unfamiliar with the route attempted
                                                                                                delivery but failed to leave a notice. We noted carriers were
                                                                                                not following postal policies and procedures. Management
                                                                                                located the mailpiece and personally delivered it.


 Semiannual Report to Congress                                                             35                                                         April 1 — September 30, 2013
                                                                                           Appendix J
Requestor                   Allegation/ Concern                                                        Major Findings                                                            Closure Date
Senator, Michigan          Intentional mishandling and non-delivery of Political                       We conducted an investigation and determined the mailing was                  04/26/13 
                           Mail during November 2012 election cycle.                                   accepted by a P&DC but needed information the complainant could
                                                                                                       not provide in order to search using the Intelligent Mail Barcode and
                                                                                                       Mail History Tracking System. Searches and interviews with postal
                                                                                                       management and non-postal sources failed to yield results, further
                                                                                                       leads, or evidence of intentional mishandling, theft, or delay of mail.
Representative,            Tampering and delay of mail (phone bill                                     We learned that three phone companies (Embark, Qwest, and                     06/20/13 
Missouri                   payment) by postal employees                                                Century Tel) merged to form Centurylink in April 2011. The
                                                                                                       Centurylink fraud department said it was possible that the payment
                                                                                                       was credited to the former Century Tel, and later learned Centurylink
                                                                                                       resolved the issue. No postal employee misconduct was involved.
Representative, Illinois   Repeated thefts of jewelry from mail by Jewelry Television                  Our office conducted a sequence of integrity tests and                        06/18/13 
                           purchaser, resulting in purchaser’s suspension                              surveillance of postal employees, none of which developed
                                                                                                       further leads. We interviewed numerous management and
                                                                                                       non-management postal employees, but found no evidence to
                                                                                                       substantiate postal employees tampered with or stole parcels.
Representative, Florida    Theft of jewelry from mail                                                  Although our investigation revealed multiple complaints, including            04/26/13 
                                                                                                       missing Netflix DVDs, credit card statements, and medications, a
                                                                                                       series of mail tests showed no system weaknesses. We could not
                                                                                                       determine the whereabouts of the missing package or substantiate
                                                                                                       the allegation that a specific postal employee was responsible
                                                                                                       for its disappearance, noting it might have been misdelivered.
Senator, Ohio              Hostile environment and postal management misconduct                        We reiterated previous responses that we found no retaliation                 05/09/13 
                           including harassment, whistleblower retaliation, union contract             and declined to prosecute based on allegations of falsification
                           violations, falsification of postal records at an Ohio delivery unit        of timekeeping records because no crime had been committed.
                                                                                                       We also mentioned the employees had resorted to the grievance
                                                                                                       process where the issues were being addressed through
                                                                                                       procedures established by the unions and management.
Representative, Texas      Denial of insurance claim after a package mailed to                         Postal policies dictate the sender is responsible for reviewing               05/20/13 
                           Singapore, containing a watch worth $1,800, was stolen                      applicable forms before presenting an item to be mailed. The sender
                                                                                                       acknowledged notice on the Customs declaration. Management
                                                                                                       asserted the claim was denied because the item shipped was
                                                                                                       identified as a prohibited item in the country of Singapore, and
                                                                                                       the OIG has no jurisdiction to intervene in such matters. However,
                                                                                                       we used tracking software to trace the package through some
                                                                                                       of the US locations, and found no evidence that theft occurred
                                                                                                       before the package entered the international mail stream.
Representative,            Theft of mail from P.O. Box                                                 We conducted a series of integrity mail tests and confirmed that              04/04/13 
West Virginia                                                                                          mail addressed to complainant arrived intact and was handled
                                                                                                       properly. We could not account for the reported problems.
Senator, Maryland          Theft of mail containing medications mailed from                            We conducted numerous observations and tests in and around                    06/20/13
                           the Department of Veterans Affairs (VA)                                     the Post Office and found no suspicious activity or theft of
                                                                                                       parcels. While we confirmed the loss, interviews with Postal
                                                                                                       Service personnel about storage procedures for packages
                                                                                                       requiring a signature produced no evidence of mail theft.
Representative,            Postal management misconduct in 2006-2007,                                  Our 2010 investigation addressed the complaints of a hostile                  06/28/13 
Massachusetts              threatening an employee, causing a work-related                             work environment in which the complainant declined to be
                           stress injury, and covering up information                                  interviewed. His attorney provided a copy of an undated
                                                                                                       written statement from the accused postal manager. (This
                                                                                                       statement did not support the allegation.) Our 2013 investigation
                                                                                                       did not uncover any additional information or reveal any
                                                                                                       additional evidence warranting further investigation.
Postmaster General         Postal employee misconduct including harassment,                            We interviewed postal management and reviewed its investigation               09/05/13 
                           theft of, and tampering with mail                                           of allegations; we found no evidence of theft of or tampering
                                                                                                       with mail. We conducted several integrity tests to verify that
                                                                                                       postal employees were properly handling the complainant’s mail.
                                                                                                       Test pieces arrived intact and with no signs of tampering.
Senator, New Jersey        Theft of and tampering with mail                                            We conducted several mail integrity tests to verify that Postal               06/06/13 
                                                                                                       Service employees were properly handling mailpieces shipped on
                                                                                                       routes from Wyoming to New Jersey. Test pieces arrived intact and
                                                                                                       with no signs of tampering. Due to the complainant not requesting
                                                                                                       tracking information at the time of mailing, and passage of time,
                                                                                                       we were unable to identify the cause or location of the loss. Our
                                                                                                       investigative efforts produced no evidence to substantiate postal
                                                                                                       employees tampered with and stole the items in the package.




 Semiannual Report to Congress                                                                    36                                                            April 1 — September 30, 2013
                                                                                     Appendix J
Requestor                 Allegation/ Concern                                                      Major Findings                                                             Closure Date
Representative, Texas     Delay of and tampering with mail, i.e., bank statements                  We examined the complainant’s Neighborhood Delivery and                         06/20/13 
                                                                                                   Collection Box Unit, which was properly secured and did not
                                                                                                   exhibit any signs of damage. We interviewed the bank’s fraud
                                                                                                   investigator and found no similar complaints. Mail integrity
                                                                                                   tests arrived intact and with no signs of tampering.
Representative,           Intentional non-delivery of mail by postal employee                      The investigation was unable to prove or disprove the                           06/26/13 
Missouri                  following complainant’s dog biting the carrier                           allegation of intentional delay or destruction of mail. Most
                                                                                                   test mailings were properly delivered, and we found no
                                                                                                   patterns of poor service, improper conduct, or theft.
Senator, Maryland         Delay and theft of mail                                                  We found the delivery problems were limited to the timeframe                    08/23/13 
                                                                                                   when a temporary change of address order was in place.
                                                                                                   The Postal Inspection Service was notified of a potential
                                                                                                   external theft problem. Once the permanent change of
                                                                                                   address was placed, the delivery problems were resolved.
Senator, Maryland         Lost mail                                                                We conducted several mail integrity tests for collection boxes                  08/07/13 
                                                                                                   where we believe items were mailed. Tests did not reveal
                                                                                                   information to help us pinpoint mail problems. We interviewed
                                                                                                   management and craft employees and found no evidence
                                                                                                   of theft or delay of mail from the collection boxes.
Senator, Connecticut      Tampering with mail causing financial loss                               Initial inquiries into the allegations confirmed the Connecticut                04/08/13 
                                                                                                   Valley District conducted a review and provided a response. Our
                                                                                                   review did not reveal any evidence of misconduct or obstruction
                                                                                                   of the mail, or basis to open formal investigative work.
Senator, North Carolina Management conducted illegal counts of mail on                             Complainant was last employed at this location in 2009.                         06/06/13 
                        rural routes — by reducing the amounts of raw mail                         We reviewed Handbook P0-603, Rural Carrier Duties and
                        not requiring sorting during the count timeframe —                         Responsibilities. Interviews with workers did not substantiate
                        reducing salaries of carriers at a rural post office.                      the allegation that management prepares the mail better
                                                                                                   during the mail count timeframe. We did not document that
                                                                                                   the practice had occurred with the past or occurs today.
Senator, Delaware         Postal Inspection Service management misconduct                          We did not substantiate the whistleblower reprisal allegations.                 06/24/13 
                          including whistleblower retaliation and discrimination                   Our investigative work revealed evidence that Inspection Service
                                                                                                   management would have taken disciplinary action against the
                                                                                                   complainant regardless of his disclosures. As we concluded
                                                                                                   our work, we became aware the complainant filed an Equal
                                                                                                   Employment Opportunity (EEO) claim. The OIG will not take any
                                                                                                   further steps that could interfere in the resolution of the matter.
Senator, Florida          Misuse of position; a postal customer lent money                         We confirmed the loan totaling $2,000 was made in 2010. The                     07/11/13 
                          to his carrier, who did not repay in full                                customer also paid the carrier in increments of $30 to ensure the
                                                                                                   carrier would forward the customer’s mail. We learned more than
                                                                                                   one resident provided financial favors, believing it would ensure
                                                                                                   proper mail delivery. We determined such transactions violated
                                                                                                   regulations under the Standards of Ethical Conduct for Employees
                                                                                                   of the Executive Branch. This behavior also violated Postal
                                                                                                   Service rules in Handbook M-41, City Delivery Carriers Duties
                                                                                                   and Responsibilities and Employee and Labor Relations Manual,
                                                                                                   ELM 665. 16, Behavior and Personal Habits. We referred our
                                                                                                   findings to postal management for action deemed appropriate.
Representative,           Hostile work environment and postal management misconduct,               As many of these issues were included in an informal Equal                      08/13/13 
California                including time and attendance fraud, discrimination, unfair labor        Employment Opportunity (EEO) complaint filed in 2013, the OIG took
                          practices, harassment, nepotism, and unsafe working conditions           no further investigative steps that could interfere in the resolution of
                          at a postal plant                                                        the matter. Concurrently, an OIG field office investigated possible
                                                                                                   falsification of timecards. We found numerous discrepancies in
                                                                                                   record keeping. Because of system outages, the system is not
                                                                                                   reliable in confirming intentional falsification of records or wrongful
                                                                                                   use of break time by employees. We referred our findings to postal
                                                                                                   area and district management for action deemed appropriate.
Senator, Louisiana        Hatch Act violation; postal supervisor holding a                         The Hatch Act issues already were settled by agencies with                      07/26/13 
                          local office misused position by appointing another                      jurisdiction over the matter. There is no legal basis for action
                          postal employee to a paid town position.                                 on this allegation by the OIG. We investigated the appointment
                                                                                                   of a postal employee to a town position, and found a mayor,
                                                                                                   not the postal supervisor, made the appointment; accepting
                                                                                                   the appointment aligned with outside employment rules.
Representative,           Tampering with and theft of mail containing gift card                    We conducted substantial surveillance at different                              07/29/13 
Maryland                                                                                           processing and delivery locations. All the mailpieces
                                                                                                   were properly handled by postal employees.




Semiannual Report to Congress                                                                 37                                                           April 1 — September 30, 2013
                                                                                      Appendix J
Requestor                 Allegation/ Concern                                                      Major Findings                                                              Closure Date
Representative,           Delay of mail — failure to honor an Express Mail signature waiver —      Our office reviewed the allegations, and conducted interviews,                   08/27/13 
Pennsylvania              and rude or threatening behavior by personnel at the delivery unit       and a search of postal databases and records. While we
                                                                                                   found no similar complaints about customer treatment, we did
                                                                                                   find data about delays and scanning issues. We referred our
                                                                                                   findings to management for action deemed appropriate.
Representative,           Non-delivery, non-receipt of mail                                        Our office conducted an investigation that produced no                            9/30/13
New York                                                                                           investigative leads or means of accounting for the delay or
                                                                                                   loss of mail. In late April, complainant reported the cause was
                                                                                                   failure by the senders to mail their payments promptly.
Representative,           Non-delivery and theft of mail containing iPod touch, scanned as         A search of the Financial Crimes Database from December 2011 to                  07/29/13 
Missouri                  delivered, and disputes about proper handling of postal insurance        May 2013 found no similar complaints; other searches uncovered
                                                                                                   no iPod Touch devices. Our interviews and other observations
                                                                                                   could not account for the missing mailpiece. We did not substantiate
                                                                                                   the allegation that the parcel was stolen by a postal employee.
                                                                                                   We reviewed the insurance claim and found the process had
                                                                                                   been confusing, but the result conformed to regulations.
Postmaster General        P&DC employees vandalized another employee’s vehicle                     We investigated, but could not find documentation of the event.                  06/27/13 
Representative,           Postal employee misconduct and non-delivery of mail                      In our observations and interviews with personnel at the two postal              07/11/13 
California                containing personally identifiable information (PII)                     facilities and at the Passport Center, we found no evidence indicating
                                                                                                   Pll might have been compromised, nor did the evidence support
                                                                                                   the claim of willful delay or theft of mail. However, we did document
                                                                                                   misconduct, violations of policy, and inappropriate conduct. These
                                                                                                   issues included failures to secure passport applications, erroneous
                                                                                                   certification of mail logs, and improper handling of Express Mail.
                                                                                                   We notified the OIG Office of Audit, which has on-going work to
                                                                                                   assess the handling of PII, particularly regarding passports.
Representative,           Theft of cash to be used to pay for a money order                        We investigated the carrier’s conformance with policies allowing                 08/27/13 
Tennessee                                                                                          for rural money order transactions on the route. We found that
                                                                                                   management took appropriate steps to safeguard, discover, and
                                                                                                   investigate the delivery of the funds and the alleged shortage.
Representative, Florida   Non-delivery and theft of media mail                                     Postal management determined the package did not qualify for                     09/05/13 
                                                                                                   reduced Media Mail rate. Items sent via Media Mail are subject to
                                                                                                   review and are returned to the mailing address if the rate is incorrectly
                                                                                                   applied. We could not determine if the package had been returned to
                                                                                                   the shipper as the signature on the mailing was illegible and the credit
                                                                                                   card number incomplete. The complainant did not retain information
                                                                                                   on the identity of the seller. We found no evidence of mail theft.
Representative,           Hostile work environment and postal management                           Complainant withdrew his complaint. We found no                                  07/22/13 
Maryland                  misconduct, including mail and time and attendance fraud                 issues that would cause us to override his request.
Representative,           Management committed time and attendance fraud by not                    Our Office of Investigations conducted an investigation, but found               07/29/13 
Maryland                  paying an employee for overtime hours worked in 2012                     no pattern of overtime hour deletions or other time and attendance
                                                                                                   irregularities. As of late June, management had corrected the pay.
Senator, Idaho            Non-delivery of mail package with an urn containing                      A postal scan on the package in Illinois led us to conclude the                  06/13/13 
                          ashes shipped from Idaho to Ohio                                         container had likely been mixed with empty equipment at the
                                                                                                   Cincinnati P&DC and returned to Illinois for storage for at least
                                                                                                   several weeks, despite assurances the P&DC had checked all empty
                                                                                                   equipment. Management confirmed, as inspectors had noted, that
                                                                                                   registry personnel had not been keeping a detailed log of incoming
                                                                                                   registered pieces. Management reported it reinstated the proper
                                                                                                   process. Once located, the package was delivered on May 9.
Representative, Florida   Requests reward for providing OIG information that led to                The OIG offers rewards only under extremely restricted circumstances             07/11/13 
                          an arrest                                                                involving undercover operations (seldom involving internal mail
                                                                                                   theft, and always approved in advance). Even then, the reward is
                                                                                                   based on substantial risk or hazards the informant encountered.
                                                                                                   The poster complainant relied on was issued by another agency and
                                                                                                   dates from a time that different reward practices were in place.
Representative, Florida   Theft of mail about the future of the Postal                             The ricin letter incidents of April 2013 impacted mail going to                  09/04/13 
                          Service sent to a U.S. Senator                                           the U.S. Senate in general, and may have affected delivery
                                                                                                   of complainant’s mailpiece, but we could not document that
                                                                                                   specifically. Complainant alleged his return address was targeted.
                                                                                                   Postal Service personnel advised us mail is redirected based
                                                                                                   on the destination address, not the return address. We did not
                                                                                                   substantiate his allegation that Postal Service management
                                                                                                   tampered with and stole mail he sent to the U.S. Senate.
Senator, Maryland         Hostile work environment; postal management misconduct                   Complainant withdrew his complaint. We found no                                  07/25/13 
                          including mail and time and attendance fraud                             issues that would cause us to override his request.




Semiannual Report to Congress                                                                 38                                                           April 1 — September 30, 2013
                                                                                     Appendix J
Requestor              Allegation/ Concern                                                     Major Findings                                                           Closure Date
Senator, New Jersey    Hostile work environment; postal management misconduct                  We found no related complaints or EEO complaints concerning postal            09/25/13
                       including harassment, intimidation, slander, and bullying               management. Management promptly investigated the complaint
                                                                                               in 2012 and determined that the incident did not rise to the level
                                                                                               of workplace harassment or assault. However, it took responsive
                                                                                               steps concerning a supervisor’s role in an altercation by requiring
                                                                                               training. We confirmed the training was completed in the summer
                                                                                               of 2012. The complainant did not provide any specific information
                                                                                               to support his complaint of slander, intimidation, or bullying.
Senator, Michigan      Additional documentation regarding                                      The documentation the mail house provided was from a Basic                    07/11/13 
                       non-delivery and theft of Political Mail                                IMB mailing, using a hardcopy statement, not the electronic
                                                                                               version needed for tracking. We took the opportunity to raise
                                                                                               the issue of financial responsibility for the loss. Management
                                                                                               advised that, based on the OIG investigation, it can authorize
                                                                                               reimbursement for the postage of the mailing.
Senator, Ohio          Misconduct by OIG agents                                                Allegations stemmed from an investigation we conducted in 2011,               07/11/13 
                                                                                               when we recovered about 4,190 pieces of mail dated for delivery
                                                                                               in 2005 and 2006, including state and federal tax refunds and
                                                                                               assistance payments. We referred our findings to the prosecutor.
                                                                                               In March 2012, complainant was indicted on five counts of theft;
                                                                                               one count of aggravated theft; and five counts of receiving stolen
                                                                                               property. In response to senator’s inquiry, we reviewed OIG videotape
                                                                                               evidence showing the house prior to and at the conclusion of the 2011
                                                                                               search. Our investigation found no evidence of agent misconduct.
Senator, Texas         Whistleblower retaliation, i.e., denial of Workers’ Compensation        We reviewed the complainant’s whistleblower retaliation claim and             07/22/13 
                       because of a protected communication, and OIG agent                     found no evidence of a protected communication, one of four required
                       misconduct, i.e., denying access to medical care and providing          elements for whistleblower retaliation claims. Therefore, we declined
                       inaccurate information to the Department of Labor (DOL).                to proceed with the retaliation claim. We also conducted interviews
                                                                                               and a review of documents regarding management’s role in the denial
                                                                                               of Workers’ Compensation. We found management contacted the
                                                                                               OIG because of discrepancies in complainant’s documentation; we
                                                                                               had advised that the evidence of injury he provided did not support
                                                                                               his claim. After a review, the DOL denied his claim for compensation.
Representative,        Theft of mail containing a credit card and                              We investigated 13 fraudulent gas station charges totaling $1,581              9/30/13
California             misconduct by a Postal Service employee                                 following the reported theft of a gas charge card from the mail.
                                                                                               Video surveillance and transaction information did not lead us
                                                                                               to identify the individuals, or find a link to the Postal Service.
                                                                                               We referred our findings to the Postal Inspection Service, which
                                                                                               addresses external theft. We also looked into complainant’s
                                                                                               claim of rude behavior at a post office. Management was aware
                                                                                               of a clerk’s problems handling customer issues and complaints
                                                                                               and was addressing the problems and making improvements.
Senator, Indiana       Postal employee misconduct, including abuse of postal                   We found that in May, OIG agents had already investigated                     08/13/13 
                       equipment and damage to private property                                unrelated incidents involving this employee. After concluding
                                                                                               our earlier work in May, we provided our investigative findings to
                                                                                               Postal Service management for administrative action. In July, we
                                                                                               confirmed the carrier is no longer employed by the Postal Service.
Representative,        Postal management misconduct including forged                           We substantiated the allegation that the signature on the LOW was not         09/26/13
Virginia               signature on a letter of warning (LOW), which                           the complainant’s, and that it was retained in the Official Personnel
                       affected ability to compete for other jobs                              Folder beyond the 2-year limit. We confirmed management removed
                                                                                               the LOW in December 2012. Labor relations personnel we interviewed
                                                                                               asserted the LOW would not have been available to hiring officials, so
                                                                                               it would not have affected complainant’s job prospects. We referred
                                                                                               our findings to postal management for action deemed appropriate.
Senator, Nevada        Disparate treatment based on age                                        Facts the complainant presented relate to EEO law. The OIG                    07/22/13 
                                                                                               does not have jurisdiction to investigate those issues. The
                                                                                               OIG will not interfere with review in the proper venue.
Senator, Mississippi   Non-delivery of mail containing a stock certificate insured             We found the transporter of the Registered Mail on that date                  09/25/13
                       for $1,000, sent from Mississippi to Massachusetts                      retained no documentation, although he apparently obtained a
                                                                                               signature on delivery of the dispatch. The Postal Service and
                                                                                               the issuer of the stock resolved the issue, but we continue to
                                                                                               be concerned about the failure to safeguard the mail and to
                                                                                               follow procedures. We planned to meet with the plant manager
                                                                                               to discuss procedures for handling Registered Mail.
Senator,               Non-delivery of mail containing a firearm                               The investigation did not identify the whereabouts of the                     09/25/13
South Carolina                                                                                 missing parcel or determine whether it was in fact stolen or
                                                                                               simply lost. We worked with the National Crime Information
                                                                                               Center, the Mail Recovery Center in Atlanta, and the local police
                                                                                               department, in case the firearm is pawned or recovered.



Semiannual Report to Congress                                                             39                                                         April 1 — September 30, 2013
                                                                                     Appendix J
Requestor                Allegation/ Concern                                                        Major Findings                                                           Closure Date
Representative,          Tampering with and theft of mail containing checks                         The Postal Service determined that automated postal sorting                   09/25/13
Missouri                                                                                            machines could not read the address as the sender’s window
                                                                                                    envelopes did not fit the checks. As the face of the check
                                                                                                    shifted during processing, machines read incorrect barcode
                                                                                                    information. As a result the mail was misrouted and delivery
                                                                                                    was delayed. Postal managers discussed the problem with the
                                                                                                    sender, who took corrective action. We could not determine
                                                                                                    the cause of apparent tampering with other mail.
Senator, North Carolina OIG and postal management harassment                                        We coordinated with other parts of the Postal Service and                     09/12/13
                        following an on-the-job injury                                              could not account for the assertion that we were monitoring the
                                                                                                    complainant. As to claims that we were electronically monitoring
                                                                                                    the complainant, we noted the Supreme Court recently limited
                                                                                                    the use of electronic monitoring devices without a warrant.
Senator, Maryland        Non-delivery and theft of mail                                             Complainant moved and is no longer the senator’s constituent.                 08/20/13 




Inspector General (IG) Audits / Risks Analysis Research Center Reports (9)
Requestor               Allegation/Concern                                                            Major Findings/Resolution                                              Closure Date
Chairwoman,             Committee requests information about                                          OIG produced audit DP-AR-13-006, Management of Detail                        05/23/13 
Senate Committee        management of detail assignments                                              Assignments. We found the Postal Service did not effectively
                                                                                                      manage detail assignments. Specifically, the Postal Service
                                                                                                      did not ensure compliance with detail assignment policies
                                                                                                      and was unable to identify who was on detail and the
                                                                                                      associated costs. We recommended the Postal Service
                                                                                                      assign the responsibility for managing detail assignments and
                                                                                                      associated travel costs to the appropriate functional area.
Senator, Pennsylvania   Senator requests an audit of the consolidation of the                         OIG produced audit NO-AR-13-004, New Castle and                              08/16/13 
                        New Castle Processing and Distribution Facility and the                       Greensburg, PA consolidation. The consolidation should
                        Greensburg Customer Service Mail Processing Center into                       produce a cost savings of about $3.3 million the first year
                        the Pittsburgh Processing and Distribution Center                             and $8.9 million annually in subsequent years. However, we
                                                                                                      found that the Postal Service did not terminate, seek buyout
                                                                                                      opportunities, or sublet leases for facilities vacated as a
                                                                                                      result of the consolidation. We recommended coordination
                                                                                                      with the Facility Service Office when rental space is vacated
                                                                                                      to ensure appropriate lease termination actions are taken.
Ranking Member,         Committee requests analysis and report analyzing the impact of                RARC examined the regulatory framework for pricing                           04/12/13 
Senate Committee        postal price regulations on the Postal Service’s financial condition          imposed by the Postal Accountability and Enhancement
                                                                                                      Act, and evaluated alternatives that might provide a better
                                                                                                      fit. The detailed report notes a critical issue with the price
                                                                                                      cap: as mail volume declines, the CPI-only price cap
                                                                                                      does not reflect the additional burdens placed on each
                                                                                                      product to financially support the expanding network. The
                                                                                                      report also notes the potential to retain price regulation,
                                                                                                      but with key modifications that take into consideration
                                                                                                      declining volume and the expanding delivery network.
Senator, Vermont        Senator requests analysis of pensions and retiree healthcare                  Our Audit team conducted analysis and responded. We                          04/29/13 
                        provisions; and analysis of authority to offer non-postal                     issued a Primer on Postal Challenges, which provides the
                        products on long-term financial sustainability                                OIG’s assessment of the key issues involved in preparing
                                                                                                      the Postal Service for the future. This document provides
                                                                                                      a background on Postal Service issues, as well as the
                                                                                                      short- and long-term options under discussion to help the
                                                                                                      Postal Service recover and continue to serve the country.
Senator, Vermont        Senator requests analysis using different assumptions                         We conducted additional analysis and responded.                              04/29/13




Semiannual Report to Congress                                                                  40                                                            April 1 — September 30, 2013
                                                                                     Appendix J
Requestor              Allegation/Concern                                                         Major Findings/Resolution                                               Closure Date
Chairman,              Committee requests copy of the campaign mail report                        Additional opportunities exist for the Postal Service to                      06/19/13
Senate Committee                                                                                  increase political mail revenue. The Postal Service has
                                                                                                  limited ability to influence state and local election officials
                                                                                                  in adopting a 100-percent vote-by-mail process. However,
                                                                                                  nonballot election mail, such as absentee request forms,
                                                                                                  may provide opportunities for increased sales of about $1.2
                                                                                                  million in the next general election by addressing citizen
                                                                                                  groups that are eligible to vote but not yet registered. We
                                                                                                  recommended the Postal Service develop a strategy to
                                                                                                  increase the sale of nonballot election mail products to
                                                                                                  citizen groups that are eligible to vote but not registered.
Chairman and           Committee requests update on status of                                     We responded with information in June. As of May                              06/28/13
Ranking Member,        recommendations from OIG audits                                            31, 2013, there were 238 open and unimplemented
House Committee                                                                                   recommendations, 78 of which had an estimated monetary
                                                                                                  impact of over $69 billion. Additionally, since May 31,
                                                                                                  2012, our office has deemed 161 recommendations as
                                                                                                  accepted and implemented by the Postal Service.
Ranking Member,        Committee requests briefing on price caps and attributable costs           We provided an in-person briefing in June.                                    06/28/13 
Senate Committee
Representative, Ohio   Additional information; audit of the Toledo, OH P&DC AMP study             Information provided to audit staff.                                          09/10/13




General Counsel and Support Functions (6)
Requestor               Allegation/ Concern                                                         Major Findings/ Resolution                                            Closure Date
Ranking Member,         Committee requests unredacted copy of the SEC report of investigation       Withdrawn                                                                  04/05/13 
Senate Committee
Chairman, Senate        Committee requests copy of the Dover misconduct report                      We provided the report in full for the committee and                       05/07/13 
Committee                                                                                           with redactions for distribution to constituents.

Senator, New Mexico     Obstruction of Hotline mailbox as entry point for complaints to the OIG     We reviewed the complaint and found                                        06/18/13 
                                                                                                    indications this document delivery problem
                                                                                                    was an information technology issue.
Representative,         Requests information entered by a third party                               We removed the information.                                                07/01/13 
Pennsylvania            be removed from OIG blog feed
Representative,         Wrongful termination                                                        We assessed OIG jurisdiction over matters raised.                          08/09/13 
New York                                                                                            We noted administrative remedies might have been
                                                                                                    appropriate venues to resolve the complaint. To the
                                                                                                    extent allegations involve managerial misconduct,
                                                                                                    investigative work would be hampered by passage of
                                                                                                    time and unavailability of parties no longer subject to OIG
                                                                                                    jurisdiction. Therefore, we did not refer it for investigation.

Representative, Utah    Postal management misconduct; violation of hiring policies                  The matters concerning complainant’s right to                              08/08/13 
                                                                                                    re-employment are not within OIG jurisdiction. We
                                                                                                    found no basis to review this postal personnel matter.




Referrals (5)
Requestor              Allegation/ Concern                                                          Major Findings/ Resolution                                            Closure Date
Senator,               Postal management misconduct; violation of policy; inappropriate conduct     Referred to Office of Government Relations                                 04/29/13 
Pennsylvania
Representative,        Information only; mail forwarding issues                                     Referred to Office of Government Relations                                 05/03/13 
Pennsylvania
Representative, Ohio   Requests record of complaint                                                 Referred to Office of Government Relations                                 05/30/13 
Representative,        Tampering with and theft of mail                                             Referred to Office of Government Relations                                 06/28/13 
Missouri
Representative,        Improprieties in denial of Workers’ Compensation appeals                     The issues are within the jurisdiction                                     09/25/13
Delaware                                                                                            of the Department of Labor.




Semiannual Report to Congress                                                              41                                                             April 1 — September 30, 2013
                                                             Supplemental Information
SUPPLEMENTAL INFORMATION                                                             SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                           Workplace Environment
The OIG Freedom of Information Act (FOIA) Office operates                            The OI Workplace Environment unit reviews workplace environment
independently of, but frequently coordinates with, its counterparts at               and operational issues that may affect workplace climate in postal
the Postal Service and the Postal Inspection Service. The FOIA Office                facilities through the country. The OIG Hotline is the usual source for the
receives requests for records from the public, the media, and postal                 complaints, but occasionally members of Congress, the Governors, and
employees. The FOIA, according to the Department of Justice, “generally              postal management will raise concerns or forward complaints appropriate
provides that any person has a right, enforceable in court, to obtain                for review by the unit. Complaint topics range from sexual harassment
access to federal agency records, except to the extent that such records             and discrimination to workplace safety. Workplace Environment reviews
(or portions of them) are protected from public disclosure by one of nine            are designed to identify systemic, rather than individual, issues and foster
exemptions.”                                                                         postal management efforts toward providing employees a stress- and
                                                                                     adversity-free work environment.
For the period April 1 — September 30, 2013
                                                                                     The unit accepts complaints from any postal employee, including OIG
                                                                                     and Postal Inspection Service staff. Reviews may result in fact-finding
Requests                                               Number of Requests            reports to management or referral for specific suggested action, such as
Carryover from prior period                                             27           climate assessments.
Received during period                                                 294
Total on hand during period                                            321           Activities

                                                                                     For the period April 1 — September 30, 2013
Actions                                                Number of Requests
Processed during the period                                            294
                                                                                      Complaints Received                                                     Total
	    Requests denied in full                                            11
                                                                                      Carried over from previous quarter(s)                                      21
	    Requests granted in full                                               9         Complaints received from OIG Hotline, Congress, Governors,                263
	    Requests denied in part                                           133            management, internal, and other:
	    No records                                                         54            Total on hand during this period                                          284
	    Requests referred                                                  20
	    Requests withdrawn                                                 19            Workplace Environment Actions
	    Fee-related reasons                                                —             Complaints reviewed and closed during the period                          243
	    Records not reasonably described                                   —             Referred to Postal Inspection Service                                      —
	    Not a proper FOIA request for some other reason                        7         Referred to Office of Audit                                                —
	    Not an agency record                                               40            Referred to Office of Investigations                                        2
	    Duplicate request                                                      1         Referred to Workplace Environment                                          41
                                                                                      Referred to Hotline                                                         1
Balance                                                Number of Requests             Referred to Summary of findings to Congress/BOG/                           96
Balance at the end of the period (pending)                              27            Postal Service Management
                                                                                      Referred to FOIA                                                           —
Processing Days                                            Number of Days             Referred to AIG for Investigations                                         —
Median processing days to respond to a FOIA request                         8         Referred to Database for statistical analysis and possible                103
                                                                                      systemic review




Semiannual Report to Congress                                                   42                                                          April 1 — September 30, 2013
                      Acronym Guide
                      Here is a quick guide to acronyms used in this reporting period.

                      APPS: Automated Package Processing System                               NALC: National Association of Letter Carriers

                      APWU: American Postal Workers Union                                     NCSC: National Customer Support Center

                      C&A: certification and accreditation                                    NDC: network distribution center

                      CSRS: Civil Service Retirement System                                   NPV: net present value

                      CSS: customer service supervisor                                        OA: Office of Audit

                      DBCS: Delivery Barcode Sorter                                           OI: Office of Investigations

                      DOL: U.S. Department of Labor                                           OWCP: Office of Workers’ Compensation Programs

                      DEA: Drug Enforcement Administration                                    P&DC: processing and distribution center

                      DWC: distribution window clerk                                          P&DF: processing and distribution facility

                      eCBM: Electronic Conditional Based Maintenance                          PAEA: Postal Accountability and Enhancement Act of
                                                                                                  2006 (also known as the Postal Act of 2006)
                      EDDI: Electronic Data Distribution Infrastructure
                                                                                              PKI: Public Key Infrastructure
                      EDI: Electronic Data Interchange
                                                                                              PRC: Postal Regulatory Commission
                      EIR: Enterprise Information Repository
                                                                                              PVS: Postal Vehicle Services
                      FEGLI: Federal Employees’ Group Life Insurance
                                                                                              RARC: Risk Analysis Research Center
                      FEHB: Federal Employees Health Benefits
                                                                                              SBOC: Stations and Branches Optimization
                      FSS: Flats Sequencing System                                                Consolidation
                      GMU: George Mason University                                            SSA: sales and services associate
                      HCR: highway contract route                                             TACS: Time and Attendance Collection System
                      LLV: long-life vehicles                                                 VMF: Vehicle Maintenance Facility
                      MTE: mail transport equipment




© 2013. USPS. All Rights Reserved. The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, United States Postal
Service® with Eagle Design, U.S. Postal Service®, USPS®, First-Class Mail®, USPS.com ®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®,
Standard Mail®, Parcel Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States
Postal Service Office of Inspector General® with Eagle Design, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail®, Delivery Confirmation™, Registered Mail™,
ZIP Code™, Priority Mail International®, First-Class Mail International®, Premium Forwarding Service®, Forever®, gopost®, Priority Mail Flat Rate®, DMM®, PostalOne!®, USPS
Delivery Confirmation®, Approved by the Postmaster General®, and Postmaster General™.




Semiannual Report to Congress                                                            43                                                       April 1 — September 30, 2013
Who do I call?
The U.S. Postal Service has two law enforcement agencies with distinct areas of investigative
responsibility to serve the needs of stakeholders, postal employees, and the American public.
            Office of Inspector General                            Postal Inspection Service
            ■■ 	 Theft, delay, or destruction of mail              ■■ 	 Security of employees, facilities, and equipment
                 by employees and contractors                      ■■ 	 Revenue and postage fraud
            ■■ 	 Workers’ compensation fraud                       ■■ 	 International mail security
            ■■ 	 Embezzlements and financial crimes                ■■ 	 Violent crimes:
            ■■ 	 Contract fraud                                         - Threats and assaults of employees
            ■■ 	 Kickbacks                                              - Burglaries and robberies
            ■■ 	 Computer crimes                                   ■■ 	 Mail theft by nonemployees
            ■■ 	 Narcotics                                         ■■ 	 Dangerous mail and bombs
            ■■ 	 Employee misconduct                               ■■ 	 Mail fraud
            ■■ 	 Internal affairs and executive investigations     ■■ 	 Identity theft
            ■■ 	 Whistleblower reprisals                           ■■ 	 Narcotics in the mail
                                                                   ■■ 	 Child pornography and obscenity

            Contact: 888-877-7644                                        Contact: 877-876-2455
                   www.uspsoig.gov                                  http://postalinspectors.uspis.gov
